<html>
<title> - THE 116TH ARMOR CAVALRY BRIGADE AND IDAHO RESERVISTS: ARE WE READY FOR THE RETURN OF IDAHO'S SOLDIERS?</title>
<body><pre>[Senate Hearing 109-372]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-372

THE 116TH ARMOR CAVALRY BRIGADE AND IDAHO RESERVISTS: ARE WE READY FOR 
                    THE RETURN OF IDAHO'S SOLDIERS?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

24-580 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001













                     COMMITTEE ON VETERANS' AFFAIRS

                      LARRY CRAIG, Idaho Chairman
ARLEN SPECTER, Pennsylvania          DANIEL AKAKA, Hawaii, Ranking 
KAY BAILEY HUTCHISON, Texas              Member
LINDSEY O. GRAHAM, South Carolina    JOHN D. ROCKEFELLER IV, West 
RICHARD BURR, North Carolina             Virginia
JOHN ENSIGN, Nevada                  JAMES M. JEFFORDS, (I) Vermont
JOHN THUNE, South Dakota             PATTY MURRAY, Washington
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
                                     KEN SALAZAR, Colorado
                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director






























                            C O N T E N T S


                              ----------                              

                             August 1, 2005
                                SENATORS

                                                                   Page
Craig, Hon. Larry E., Chairman, U.S. Senator from Idaho..........     1

                               WITNESSES

Kempthorne, Hon. Dirk, Governor, State of Idaho..................     3
Perlin, Jonathan B., M.D., Ph.D., MSHA, FACP, Under Secretary for 
  Health, Department of Veterans Affairs; accompanied by Max 
  Lewis, Acting VISN 20 Director and Wayne Tippets, Director, 
  Boise VA Medical Center........................................     5
    Prepared statement...........................................    10
Rubens, Diana M., Director, Western Area Office, Veterans 
  Benefits Administration, Department of Veterans Affairs; 
  accompanied by Jim Vance, Director, Boise VA Regional Office...    13
    Prepared statement...........................................    16
Lafrenz, Major General Lawrence F., Adjutant General, Idaho 
  National Guard.................................................    30
    Prepared statement...........................................    32
McIntyre, Jr., David J., President and CEO, TRIWEST Healthcare 
  Alliance.......................................................    34
    Prepared statement...........................................    36
Reese, Scott, Mayor of Blackfoot and Chairman, Idaho State 
  Committee, Employer Support of the Guard and Reserve...........    44
    Prepared statement...........................................    47
















 
THE 116TH ARMOR CAVALRY BRIGADE AND IDAHO RESERVISTS: ARE WE READY FOR 
                    THE RETURN OF IDAHO'S SOLDIERS?

                              ----------                              


                         MONDAY, AUGUST 1, 2005

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2 p.m., at Gowen 
Field, Building 440, Boise, Idaho, Hon. Larry Craig (Chairman 
of the Committee) presiding.
    Present: Senator Craig.
    Also Present: Governor Dirk Kempthorne.

  OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM 
                             IDAHO

    Chairman Craig. Good afternoon everyone, and welcome to 
this field hearing of the U.S. Senate Committee on Veterans' 
Affairs. First, let me thank General Lafrenz. I understand that 
the microphones and the sound system were not up as of early 
this morning.
    General Lafrenz. Yes, sir. That's my understanding.
    Chairman Craig. Congratulations. The military has 
successfully accomplished another mission. It is a great honor 
for me to be here and to be hosted by you here at Gowen Field. 
I appreciate your efforts to make this hearing possible.
    I also want to recognize my partner to my right, Governor 
Dirk Kempthorne, who is playing a tremendously important role 
for Idaho as it relates to our military at this moment in time. 
Let me also thank Dr. Perlin for making a trip to Idaho. Thank 
you very much, Dr. Perlin. I believe this is the first time 
that we've had an Under Secretary for Health of the Veterans 
Administration come to our State.
    This hearing couldn't be more timely, I think, and more 
important to Idaho citizens, soldiers, and their families. 
Idaho currently has over 1,800 Idaho troops who have been 
deployed. This represents an impressive 42 of our 44 counties. 
This is one of the most extensive deployments in the Nation, 
and the impact on Idaho, we believe, is significant. I am sure 
nearly every person in our communities around the State has a 
family member, a friend, an employee who is currently serving 
our country in the war on terror. We are extremely proud of 
their service, and Idahoans have shown amazing support for 
these individuals and the sacrifices they are making to defeat 
terrorism and to keep this Nation secure.
    Earlier this year, I made a trip to Iraq to visit our 
servicemen and women, along with other members of the Idaho 
Congressional delegation. I can't tell you how impressed I was 
by the commitment, the dedication demonstrated by our Idaho 
soldiers. As I talked with the soldiers there, they impressed 
their heartfelt thanks to all Idahoans who have been so 
supportive.
    This support means everything to them. It comes on a daily 
basis, and it is continuous. They are truly heroes, and we 
should do everything possible to give them all of the support 
necessary on the battlefield and when they return to their home 
State of Idaho.
    We gather here today with that role in mind. The title of 
today's hearing is--The 116th Armor Cavalry Brigade and Idaho 
Reservists: Are We Ready for Their Return to Idaho? Or I should 
say are we ready for the return to Idaho of Idaho 
servicemembers. I'm told that our Guard and Reservists may be 
able to return to Idaho at the end of this year or sooner. We 
certainly hope and pray that this is the case. At that time we 
will continue to support these brave men and women as they 
return home to communities all around our State.
    So we must ask: Are we ready for their return? Do we have 
the appropriate resources in place to provide the services they 
may need? What challenges will a rural State like Idaho face in 
providing access to benefits and healthcare? What is being done 
to help prepare the families for the return of their loved 
ones? I'm sure that many of you here today have some of those 
same questions that I have just asked.
    With our citizen servicemembers spread throughout the 
State, it will take a finely coordinated effort with a wide 
variety of partnerships to make sure that every effort is being 
taken to meet the needs of those coming home.
    I'm pleased again that Governor Kempthorne could be here 
today to participate in this hearing. He plays a very important 
role in the coordinated efforts that are underway and will 
continue to be developed prior to our service men and women's 
return home.
    We are here today to ensure we are ready to offer as much 
support as possible to those heroes from Idaho, to identify any 
gaps that should be addressed before our troops come home. We 
have gathered two panels of witnesses that are playing vital 
roles in planning for the return of Guard and Reservists who 
will be making their way home to Idaho.
    We are joined on our first panel today with Dr. Jonathan 
Perlin, Under Secretary of Health for the Department of 
Veterans Affairs. He will be joined by Max Lewis, acting VISN 
20 Director; and Wayne Tippets, Director of the Boise VA 
Medical Center. We also have Ms. Diana Rubens, Director of 
Western Area Office for the Veterans Benefits Administration. 
She will be joined by Mr. Jim Vance, Director of the Boise VA 
Regional Office.
    On our second panel we will hear from Major General Larry 
Lafrenz, Idaho Adjutant General; and Mr. David McIntyre, the 
President and CEO of TriWest. We'll discuss their work with 
TriCare. We will also hear from Scott Reese. Not only is he the 
Mayor of Blackfoot, Idaho, but is chairman of the Idaho State 
Committee of the Employer Support of the Guard and Reserve.
    So I want to welcome all of you. Those of you in the 
audience certainly who are here as interested family members, 
or interested friends, or veterans yourselves, we're extremely 
pleased that you could join us this afternoon.
    Before I ask our panelists to come forward, let me turn to 
the Governor of the State of Idaho, Governor Kempthorne, for 
any--you see, I almost made that mistake I made years ago, but 
I caught myself. Why I do that I do not know. The Honorable 
Governor of the State of Idaho, Dirk Kempthorne.
    Dirk.

          STATEMENT OF HON. DIRK KEMPTHORNE, GOVERNOR,
                         STATE OF IDAHO

    Governor Kempthorne. Let me thank the Senior Senator from 
Iowa.
    Chairman Craig. He almost said senior citizen.
    Governor Kempthorne. Chairman Craig, thank you very much. 
Let me commend Senator Craig for convening this hearing. All 
veterans, all soldiers have a friend in Senator Craig. And to 
have him as Chairman of Veterans' Affairs Committee is 
tremendous for our service personnel. It's an honor for Idaho, 
one which we take a great deal of pride in. But the service 
provided by Larry is tremendous, and I want to thank you on 
behalf of all citizens and soldiers and veterans.
    I also want to commend all veterans who are here today who 
have also been a tremendous source of strength and focus during 
this deployment. Our veterans have been there and they have now 
returned. They know the experience, and their families know the 
experience. And so they have been a wonderful resource for all 
of us.
    During this deployment, this is the largest single 
deployment in the history of the State of Idaho. Therefore, it 
is the largest single demobilization ever in the history of 
Idaho. We have not been here before.
    Now, I see we have Charlie Company who is here, United 
States Marine Corps. Awesome. Lance Corporal Mitch Ehlke, one 
of your comrades in arms, is down here. They epitomize the 
Reserve all that is tremendous and is great, the 116th, the 
distinguished service that they're providing, and the Air Guard 
that is continually rotating in and out of here.
    We will be ready and we will provide a hero's welcome for 
when the 116th returns, for when Charlie Company returns, as 
the Air Guard returns from the mobilizations and rotations. But 
here's the key. It's not how we treat our returning soldiers 
the day and the weeks after, it's the months and the years 
after that that will mark how we have truly shown our support 
for these men and women who have served and answered the call 
to duty. I'm dedicated to that. Senator Craig is dedicated to 
that. I know these gentlemen and ladies from Washington, DC, 
are dedicated to that.
    But it does pose some interesting challenges because we are 
a rural State. As Senator Craig said, 42 of 44 counties are 
providing military personnel. So when they return to their 
armories in some of the more rural areas, you no longer have 
the critical mass, the camaraderie 24/7 that you have in 
theater. Now you're dispersed.
    Your family members have had to learn how to get through 
this for the last 18 or 24 months. And somehow they have now 
done so. I've seen the strength of the families where they have 
rallied, an unwavering show of love and support for their 
soldier who's serving and making sure that the home front is 
taken care of.
    Now when the soldier returns, the family has learned to 
cope. How has the world changed the homefront for the man and 
the woman who now steps back into that role? And if you do have 
a soldier who is beginning to go through the real feelings--
because we've now made them warriors. If you read Snakebite's 
newsletter, it continually addresses them as warriors. So now 
we're going to bring the warriors home. There's going to be a 
transition period, both in the home and the workplace and 
internally.
    And so what programs do these soldiers access and how are 
they made aware of those programs? And also, if they do access 
those programs and they're in an area where perhaps they can't 
share their inner feelings, how do you do so and not establish 
some stigma that you feel you shouldn't ask these questions? 
What we must do is make sure they feel comfortable in asking 
any and every question--both the soldier and the family.
    Mitch Ehlke, when he came back--he could have been back 
here 2 months earlier-but Mitch told me the reason he didn't is 
because he was going to make sure that when he got off the 
plane he walked to this meeting. That's a wonderful, inspiring 
example. And he did so.
    So Senator, I think what we're doing is we're making sure 
that when our troops return, we are ready to walk, to embrace 
them, and to carry out our duties to the soldiers and families 
the day after, the week after, the months and years after. 
Today is a great opportunity for that to continue.
    Chairman Craig. Governor, thank you for those very 
appropriate remarks. For the last 6 months, I and others of the 
Veterans' Affairs Committee have been asking those kinds of 
questions. In fact, we thought it was a time when maybe we were 
building up people at Bethesda or Walter Reed that ought be 
home. And we suggested and held a hearing saying can't we 
provide this kind of rehabilitative services in our VA 
hospitals around the country so that these soldiers can be 
closer to their families?
    And it was the soldiers in rehabilitation that said,`` No, 
don't do that. We rehab much faster if we're together, if we're 
challenging ourselves and working together. We want to be here 
and with our families.'' But the kind of comradeship that grows 
out of a common problem, and a rehabilitation that I think 
probably this young gentleman has gone through and is going 
through, we found out that they themselves really, in other 
words, they wanted to walk before they came home. And I 
thought, that's very appropriate that you said it the way it 
was, because clearly in the hearings that we held, we found out 
just exactly that kind of comment from the very veteran or 
service men and women themselves who are going through this 
kind of rehabilitative needs at this time.
    But you've outlined it well, and with that outline let us 
move to our first panel this afternoon. Let me invite to the 
table the Honorable Dr. Jonathan Perlin, Under Secretary for 
Health, U.S. Department of Veterans Affairs; to be accompanied 
by Max Lewis, Acting VISN Director; Wayne Tippets, Boise VA 
Center Director; also Diana Rubens, Director of Western Area 
Office Veterans Benefits Administration. She will be 
accompanied by Jim Vance, Boise Regional Office.
    Again, Secretary Perlin, we're pleased to have you in Idaho 
and we look forward to your testimony. The mics are activated 
by the top button when it's depressed. There you go. And I'm 
finding out, as the Governor did, they're very sensitive. OK. 
Thank you. Please proceed.

STATEMENT OF JONATHAN B. PERLIN, M.D., Ph.D., MSHA, FACP, UNDER 
     SECRETARY FOR HEALTH, DEPARTMENT OF VETERANS AFFAIRS; 
 ACCOMPANIED BY MAX LEWIS, ACTING VISN 20 DIRECTOR; AND WAYNE 
           TIPPETS, DIRECTOR, BOISE VA MEDICAL CENTER

    Under Secretary Perlin. Good afternoon, Mr. Chairman and 
the rest of the Committee. I want to thank you very much for 
the opportunity to appear today to discuss VA's preparedness to 
meet the needs of returning Operation Iraqi Freedom and 
Operation Enduring Freedom veterans.
    It is such a pleasure for me to be here in Idaho, the home 
State of the Chairman of the Senate Veterans' Affairs 
Committee, Senator Larry Craig. Mr. Chairman, throughout your 
entire career you have demonstrated your awareness that 
America's veterans are the men and women who have made it 
possible for our Nation to be all that it is today; that our 
Nation will be judged in the future by the way we treat our 
veterans now; and that those who put their lives on the line 
for their country, like the incredibly inspirational work and 
actions of Mitch Ehlke, deserve to be treated with dignity and 
respect and the best possible care this country can provide.
    I want to thank you for your clear and decisive leadership 
in Washington and here in Idaho, which has provided our 
department with the resources we need to meet President 
Lincoln's commitment to care for all of those who have borne 
the battle and for their families.
    Also I want to thank Governor Dirk Kempthorne for being 
here today. As Idaho's United States Senator and now its 
Governor, Governor Kempthorne has repeatedly demonstrated that 
he is a true friend to veterans and their families. Governor, 
the VA greatly appreciates your support.
    Mr. Chairman, I understand that in about November the 
citizen soldiers of the 116th Cavalry Brigade will return home 
following their brave and honorable service in Iraq. I dare say 
there is no one in this State who has not felt their absence 
and no one who will not take tremendous pride in their return. 
The men and women of the 116th are business men and women, 
police officers, firefighters, paramedics, and some are 
government workers. I am proud that four are employees of the 
Department of Veterans Affairs: Robert Boggs, Darren Shipley, 
Brian Maples, and Steve McGuire. Eleven members of the brigade 
sadly have already given their lives in service to our Nation. 
All of us mourn their loss.
    Members of the 116th have a proud history. They fought 
bravely in World War II, Korea, Vietnam, Operation Desert 
Storm, during which time they proved to the Nation every 
National Guard combat unit could fight and win even against 
those formidable enemies, even, if not especially, as citizen 
soldiers. Those who became ill or injured in service have 
earned, earned the finest healthcare the Nation can provide. It 
is our privilege that the Veterans Health Administration be 
chosen to serve these heroes.
    Mr. Chairman, every member of the brigade who has served in 
a combat zone, such as Afghanistan or Iraq, is eligible to 
receive VA healthcare for conditions that may be related to his 
or her combat service. Those who enroll may receive care for 2 
years following their separation from active duty without being 
required to provide a co-payment. After the 2-year period is 
up, they may continue their enrollment in our healthcare system 
at the highest level priority which they are entitled.
    Many of these veterans returning will visit our Medical 
Center here in Boise, back here as part of our VA Northwest 
Healthcare Network. The VA Medical Center here in Boise serves 
veterans in 23 counties in southwestern central Idaho and 4 
counties in southeastern Oregon. It is affiliated with the 
University of Washington School of Medicine; it has student 
affiliations in nursing and social work with Boise State 
University; and it has a pharmacy affiliation with the Idaho 
College of Pharmacy.
    I was pleased and honored to be the first Under Secretary 
to visit the Boise VA Medical Center. This is a mission that I 
look forward to my next visit, if not to Boise, to other parts 
of Idaho. But I am very pleased to be able to tell you how 
proud I was when I saw the medical center today. It is an 
immaculate campus with a shiny new ambulatory care clinic, a 
new emergency room that's about to open next month, and state-
of-the-art care in some other areas including mental 
healthcare. The center is not about the facility, it is not 
about the shiny new buildings. It's about the people who work 
there, and I can't tell you how positively I felt about the men 
and women who truly have served our Nation's veterans. They 
were absolutely passionate in their care and passionate about 
their service to the men and women who served our country in 
uniform.
    The Boise VA provides a full range of patient care 
services: Primary care; medicine, surgery; psychiatry; physical 
medicine and rehabilitation; oncology; dentistry; and 
geriatrics and extended care. Of course, it has the lovely 
veterans' State home right next door. The facility provides 46 
acute care beds, a 32-bed extended care unit, and 9 beds for 
resident treatment of substance abuse.
    Boise's reach all the way across Idaho is extended by 
community-based outpatient clinics in Twin Falls and Ontario, 
Oregon, and shares a program with Mountain Home Air Force Base 
for pathology and mental health services. The VA also maintains 
outpatient services in eastern Idaho at Pocatello, supported by 
our Salt Lake City VA Medical Center, as well as the care 
provided on the western border at Lewiston, affiliated with our 
VA hospital in Walla Walla, Washington.
    Finally, Mr. Chairman, we have two Veterans Outreach 
Centers, Vet Centers, in Idaho, here in Boise and also 
Pocatello. These centers are part of VA's readjustment 
counseling service, and they help veterans to make a successful 
readjustment to civilian life once their service is completed.
    We recognize that the geography of Idaho presents unique 
challenges. We heard this morning a comparison of Idaho to the 
east coast of the United States would demonstrate the State of 
Idaho would stretch all the way from Boston to Washington, DC. 
Unlike the shuttle from Washington, DC, though, there are 
mountains in between and in fact we need a way to transcend 
these challenges of geography. And for that we use telemedicine 
or the use of electronic information systems and communication 
to support healthcare when distance separates the provider from 
the patient.
    We use telemedicine extensively to increase access to care 
especially for veterans who are in remote locations and those 
who are disabled and elderly. We use telemedicine in the areas 
of radiology, mental health, cardiology, pathology, 
dermatology, psychiatry, diabetes care, and consultations for 
veterans with serious conditions such as spinal cord injury. 
Nationally, the VA conducts more than 350,000 telemedicine 
consultations annually. From our briefing today, we heard how 
we provide service to 197 veterans in Idaho in a given day 
through the telemedicine program.
    Mr. Chairman, we are proud of our ability to reach out to 
the 136,000 veterans in many ways. And I am grateful for this 
opportunity to speak to them, but I realize it's not sufficient 
for just those of us in attendance today to know the services 
the VA makes available for returning servicemembers. Clearly it 
is our obligation to make certain that our returning heroes are 
aware of all the benefits and services a grateful Nation can 
provide them for their service and their sacrifices. And I 
appreciate the opportunity to meet this morning with General 
Lafrenz to make sure that we are coordinated as tightly as 
possible.
    Our department has been participating actively in discharge 
planning and orientation sessions for returning servicemembers, 
including members of the Reserve and National Guard. I expect 
that every member of the 116th will receive a copy of our new 
brochure entitled, ``A Summary of VA Benefits for National 
Guard and Reserve Personnel.'' In fact, I took the liberty of 
bringing a thousand of these with me as a first down payment on 
getting these out to each and every servicemember to identify 
the services available not just today and tomorrow, Governor as 
you've indicated, but whenever that veteran needs the services 
over the rest of their lives.
    We have already distributed more than a million of these 
brochures. It's available online right now if you go to the 
Iraqi Freedom link on VA's Web site. This link also provides 
information on health and mental health benefits as well as 
benefits through the Department of Defense and veteran benefits 
in education and other services provided by VA.
    We look forward to having special briefings here in Idaho 
as we've done elsewhere in the country. In fact, throughout the 
country we've briefed more than 200,000 Reservists and Guards 
since the war began, 68,000 at 974 briefings in 2005 alone. And 
every Reservist, every Guardsman and woman returning home 
receives a ``thank you'' letter from Secretary Nicholson, along 
with information brochures, information about how to access VA 
services through a toll-free number or anywhere throughout the 
country.
    Mr. Chairman, outreach is not the only manner through which 
VA has prepared to welcome home the 116th and their 
counterparts. Our medical center employees have been trained to 
ensure they can identify new combat veterans and take 
appropriate steps to make sure they receive the world-class 
care they have earned.
    Most of the VHA's nearly 200,000 employees see a video we 
prepared entitled, ``Our Turn to Serve.'' The video is designed 
to better help them understand the experiences of our Nation's 
newest veterans and shows them how they can provide these 
heroes with the best possible service. Our Veterans Health 
Initiative is a program designed to increase recognition of the 
connection between military service and certain health effects; 
to better document veterans' military and exposure histories; 
and to improve our ability to provide patient care.
    We prepared a number of teaching modules through the 
Initiative including one on recognizing the phases and 
situations of Iraqi war veterans including stress disorders and 
to summarize, to help clinicians promptly recognize and treat 
the symptoms of PTSD.
    Mr. Chairman, I know the men and women of this great State 
and all American citizens are concerned about the physical 
costs of war. I am aware that Idaho's citizens pray for the 
safe return, as do I, of all the great servicemen and women who 
serve today on the front lines of freedom. I know the veterans 
of our previous wars and their loved ones are concerned that 
the VA might be overwhelmed by these new veterans and that the 
level of care might be reduced as a result. I want to assure 
you that we can provide the best care these veterans deserve.
    As of July 1, 2005, we understand that approximately 
393,000 veterans have been discharged from service since the 
beginning of the war. About 60 percent of those are Guardsmen 
or Reservists, like the men and women of the 116th. The 
remainder are active duty troops. About 100,000, or 26 percent, 
sought VA care, but less than 1 percent have been hospitalized 
since their return. The veterans we have seen, therefore, 
represent a relatively low proportion of our total patient 
population. But we understand that they may have suffered 
greater acute trauma than other patients.
    Some come to us with a wide variety of medical and 
psychological disorders. The most common problems of the 
service men and women principally have been joint and back 
problems and dental problems, the kinds of issues that we would 
expect to see in a young, active military population.
    A growing number, however, come to us with mental health 
issues. Let me be clear, sir, that nearly every servicemember 
who is exposed to the horrors of war will come away with some 
degree of emotional distress. Some will have short-term 
adjustment reactions, a normal response to an abnormally 
stressful situation. Thankfully, the majority of our troops 
will not suffer long-term consequences from their combat 
experience. We believe it may be possible to lower the 
incidence of long-term mental health problems through a 
concentrated effort of early detection, outreach, and 
intervention.
    Nationally, as of the beginning of this month, 
approximately 14,700 veterans have been evaluated for or 
treated for diagnosis of PTSD. Of these, approximately 3,600 
have been seen at our Vet Centers throughout the country, such 
as the ones here in Boise and also in Pocatello. And 20,818 
have received care for adjustment reactions.
    The difference between adjustment reactions and PTSD can 
best be described in this way. Adjustment disorders may result 
in temporary impairment in a veteran's social or occupational 
functioning or in symptoms and behaviors that are beyond the 
normal expected response to stress. These are resolved when 
either the stimulus--the stress--is removed or when supportive 
therapy allows the patient to better adapt to his or her 
environment. PTSD or posttraumatic stress disorder, however, is 
not necessarily time-limited in its course and always requires 
a higher level of intervention.
    Our 207 community-based Vet Centers can provide 
interventions at a local level that are often all that's needed 
to resolve a return to normal life, to resolve adjustment 
reactions to symptoms. The more severe mental health issues can 
be treated comprehensively through a continuum of services. The 
intensity of care ranges from acute inpatient settings--
residential services for those who need structured support 
before returning to the community--to a variety of outpatient 
services, including day hospitals and day treatment centers, 
all of which, by the way, are available at our Boise hospital. 
If it is needed, we can provide long-term inpatient or nursing 
home care, as well.
    Mr. Chairman, the VA is able to care for all OIF and OEF 
veterans who have or will develop mental health issues, not 
only in Idaho, but throughout the United States. With your 
support, this fiscal year we have allocated $100 million 
initially to implement new initiatives to improve our mental 
health services. The supplemental appropriation for 2005 in the 
amount of $1.5 billion and the President's Budget Amendment for 
fiscal year 2006, both of which you have so ardently 
championed, will provide us with sufficient funding not only to 
care for all veterans of PTSD, but to provide all of the 
healthcare needs of OIF and OEF veterans in the world-class 
manner to which they are entitled.
    VA is also prepared to provide specialized care for 
servicemembers and veterans who have sustained severe and 
multiple catastrophic injuries. Since the war began, four 
regional Polytrauma Centers have been developed to serve as 
regional referral centers for individuals with serious 
disabling conditions suffered in combat. The nearest centers to 
Idaho are located in Minneapolis, to the east, and Palo Alto to 
the west, with two additional sites at Richmond, Virginia and 
Tampa, Florida where veterans can be rehabilitated in an 
inspirational environment of their fellow servicemembers and 
veterans and also with individuals who seek to provide the same 
world-class service and aggressiveness of rehabilitation as 
restoring a professional athlete to competition to play.
    We will ensure that families are fully involved in the 
recovery process and work with local businesses and others to 
find them discounted housing, meals, and transportation. Should 
an Idaho resident be admitted to one of our four Polytrauma 
Centers, his or her family will find a warm welcome and a home 
away from home if they want to be there to support their loved 
one's recovery.
    Mr. Chairman, I am proud to join you and the citizens of 
Idaho as we await the safe return of the 116th Cavalry Brigade 
from their duty on foreign shores. On behalf of all VA 
employees in this State and every VHA employee Nationwide, I 
thank the Idaho patriots who serve our Nation while in uniform 
in this war and in all previous wars. And I am truly honored 
and humbled to have the opportunity to work together with you 
to meet our Nation's commitment to them and to our comrades. 
Thank you.
    [The prepared statement of Under Secretary Perlin follows:]
  Prepared Statement of Jonathan B. Perlin, M.D., Ph.D., MSHA, FACP, 
       Under Secretary for Health, Department of Veterans Affairs
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to appear today to discuss VA's preparedness to meet the 
needs of returning Operation Iraqi Freedom and Operation Enduring 
Freedom veterans.
    It is a special pleasure for me to be here in Idaho, the home State 
of the Chairman of the Senate Committee on Veterans' Affairs, Senator 
Larry Craig. Mr. Chairman, throughout your entire career you have 
demonstrated your awareness that America's veterans are the men and 
women who have made it possible for our Nation to be all it is today; 
that our Nation will be judged in the future by the way we treat our 
veterans now; and that those who have put their lives on the line for 
their country deserve to be treated with respect--and with dignity.
    I thank you for your clear and decisive leadership in Washington 
and here in Idaho, which has provided our Department with the resources 
we need to meet President Lincoln's commitment to care for all those 
who have borne the battle, and for their families.
    I also thank Governor Dirk Kempthorne for being here today. As 
Idaho's United States Senator, and now its Governor, Governor 
Kempthorne has repeatedly demonstrated that he is a true friend to 
veterans and their families. Governor, VA greatly appreciates your 
support.
    Mr. Chairman, I understand that in November, the citizen soldiers 
of the 116th Cavalry Brigade will return home following their brave and 
honorable service in Iraq. I dare say that there is no one in this 
entire State who has not felt their absence--and no one who will not 
take tremendous pride in their return. The men and women of the 116th 
are business men and women; police officers; firefighters; paramedics: 
and some are government workers. I am proud that four are employees of 
the Department of Veterans Affairs: Robert Boggs; Darren Shipley; Brian 
Maples; and Steve McGuire. Eleven members of the brigade have already 
given their lives in service to our Nation, and all of us mourn their 
loss.
    Members of the 116th fought bravely in World War II; Korea; 
Vietnam; and Operation Desert Storm; during which they proved to the 
Nation that National Guard combat units could fight, and win, against a 
formidable enemy even, if not especially, as citizen soldiers. Those 
who become ill or injured in service have earned the finest health care 
our Nation can provide; and it is our privilege, at the Veterans Health 
Administration, to be chosen to serve these heroes.
    Mr. Chairman, every member of the Brigade who has served in a 
combat zone, such as Afghanistan or Iraq, is eligible to enroll and 
receive VA health care for conditions that may be related to his or her 
combat service. Those who enroll may receive that care for 2 years 
following their separation from active duty without being required to 
pay a co-payment. After this 2 year period is up, they may continue 
their enrollment in our health care system at the highest level of 
priority to which they are entitled.
    Many of these Veterans will visit our Medical Center in Boise for 
their care, which is part of our VA North West Health Network. The 
Boise VA Medical Center currently serves approximately 70,000 veterans 
in 23 counties in Southwestern and Central Idaho, and 4 counties in 
Southeastern Oregon. It is affiliated with the University of Washington 
School of Medicine; it has student affiliations in Nursing and Social 
Work with Boise State University; and it has a pharmacy affiliation 
with the University of Idaho College of Pharmacy.
    Our VA Medical Center here in Boise has a vital research program 
conducting internationally renowned research in aging; infectious 
disease; clinical pharmacology, neuropharmacology, cardiovascular 
pharmacology, physiology and pharmacology; and pulmonary anatomy.
    Boise also provides a full range of patient care services in 
primary care; medicine, surgery; psychiatry; physical medicine and 
rehabilitation; oncology; dentistry, and geriatrics and extended care. 
The facility provides 46 acute-care beds, and a 32-bed extended care 
unit including an additional 9 beds for resident substance abuse 
treatment.
    Boise's reach across Idaho is extended by community based 
outpatient clinics in Twin Falls and Ontario, Oregon; and a sharing 
program with Mountain Home Air Force Base for pathology and mental 
health services. VA also maintains outpatient clinics in eastern Idaho 
at Pocatello, which is maintained by our Salt Lake City VA Medical 
Center; and on the western border at Lewiston, maintained by our 
hospital in Walla Walla, Washington.
    Finally, Mr. Chairman, we maintain two Veterans Outreach Centers, 
or Vet Centers, in Idaho, in Boise and Pocatello. These centers are 
part of VA's readjustment counseling service, and they help veterans to 
make a successful readjustment to civilian life once their service is 
completed. We also provide services to family members to assist with 
that readjustment.
    Telemedicine involves the use of electronic medical information and 
communication to provide and support health care when distance 
separates the provider from the patient. Because much of Idaho is 
rural, we use telemedicine extensively throughout the State to increase 
access to our care, especially for veterans who are in remote 
locations, and those who are disabled and elderly. We use telemedicine 
in radiology, mental health, cardiology, pathology, dermatology, 
psychiatry, and in home care teleconsultations for spinal cord injury 
patients and for patients with other chronic conditions. Nationally, 
VHA conducts more than 350,000 consultations annually via telemedicine.
    We are proud of our ability to serve Idaho's 136,000 veterans in 
many ways, and I am grateful for this opportunity to speak directly to 
them.
    Mr. Chairman, it is not sufficient that those in attendance in this 
hearing know the services VA has available for returning 
servicemembers. Clearly, it is our obligation to make certain that our 
returning heroes are aware of all the benefits and services a grateful 
Nation will provide to them in return for their service and sacrifices.
    Our Department actively participates in discharge planning and 
orientation sessions for returning servicemembers, including members of 
the Reserves and National Guard. I expect that every member of the 
116th will receive a copy of our new brochure, ``A Summary of VA 
Benefits for National Guard and Reserve Personnel'' before he or she is 
separated from military service. The brochure summarizes the benefits 
available to this important group of veterans upon their return to 
civilian life.
    We have already distributed more than a million copies of this 
valuable brochure--and it is available online, as well, at a new 
``Iraqi Freedom'' link on VA's Web site--which also provides 
information on VA benefits, including health and mental health 
benefits; Department of Defense benefits; and community resources 
available to Guardsmen and Reservists and their family members.
    We also conduct special briefings for Reserve and Guard members. We 
have already briefed more than 200,000 reservists and guardsmen since 
the war began 68,000 at 974 briefings in 2005 alone. And every 
reservist and guardsman returning home receives a ``thank you'' letter 
from Secretary Nicholson, along with information brochures telling them 
about health care and other VA benefits; providing toll-free 
information numbers, and offering them the addresses for appropriate 
Web sites to help them and their families obtain additional 
information.
    Mr. Chairman, outreach is not the only manner through which VA has 
prepared to welcome the 116th--and their counterparts throughout the 
Nation--back home. Our medical center employees have been thoroughly 
trained to ensure that they can identify these new combat veterans, and 
to take appropriate steps to ensure that they receive the world class 
care they have earned.
    Most of VHA's nearly 200,000 employees have seen a video we 
prepared, entitled ``Our Turn to Serve.'' The video was designed to 
help them better understand the experiences of our Nation's newest 
veterans, and shows them how they can provide these heroes with the 
best possible service. Our Veterans Health Initiative is a program 
designed to increase recognition of the connection between military 
service and certain health effects; to better document veterans' 
military and exposure histories; to improve our ability to provide 
patient care; and to establish a data base for further study.
    We have recently developed a training module for the Initiative 
called ``Treating War Wounded,'' which is designed to help our 
clinicians manage the clinical needs of veterans who return home with 
physical wounds. Other modules, on spinal cord injury; traumatic 
amputation; post traumatic stress disorder; blindness and visual 
impairment; hearing loss; and infectious disease risks in Southwest 
Asia are also available. In addition, VA's national center for Post 
Traumatic Stress Disorder has developed an ``Iraq War Clinician's 
Guide,'' to help clinicians promptly recognize and treat the symptoms 
of PTSD.
    Mr. Chairman, I know the men and women of this great State--and all 
American citizens--are concerned about the physical cost of this war. I 
am aware that Idaho's citizens pray for the safe return--as I do--of 
all of the brave service men and women who serve today on the front 
lines of freedom, not just their fellow citizens. And I know that 
veterans of previous wars, and their loved ones, are concerned that VA 
might be ``overwhelmed'' by these new veterans, and that their level of 
care might be reduced as a result.
    As of July 1, 2005, VA is aware of 393,000 veterans who have been 
discharged from service since the beginning of the war. About 60 
percent of these are guardsmen or reservists like the men and women of 
the 116th; the remainder are active duty troops. Just over 100,000, or 
26 percent, have sought VA health care--but less than 1 percent of them 
have been hospitalized since their return. The veterans we have seen, 
therefore, represent a relatively low proportion of our total patient 
load--but many have suffered much greater acute trauma than our other 
patients.
    They are coming to us with a wide variety of both medical and 
psychological disorders. The most common health problems have been 
principally joint and back problems and dental problems--the kinds of 
issues we would expect to see in young, active, military populations.
    A growing number, however, come to us with mental health issues. 
Let me be clear, Mr. Chairman, that nearly every servicemember who is 
exposed to the horrors of war comes away with some degree of emotional 
distress. Many will have some short-term adjustment reactions; a normal 
response to an abnormally stressful situation. Thankfully, the majority 
of troops will not suffer long-term consequences from their combat 
experience. And we believe it may be possible to lower the incidence of 
long-term mental health problems through a concentrated effort of early 
detection and intervention.
    Our comprehensive strategic plan to provide mental health care to 
those needing help integrates the lessons of the past with our current 
understanding of the best approaches to emotional support and mental 
health care. Our orientation toward returning servicemembers 
incorporates a public health approach to care, and is guided by the 
principles of the President's New Freedom Commission on Mental Health, 
which endorses holistic integration of physical and mental health care, 
and focuses on restoration of function and recovery.
    As of the beginning of this month, 12,326 veterans have received a 
provisional diagnosis of PTSD. Our data also indicate that 3,596 OIF/
OEF veterans have been evaluated or treated for PTSD at our Vet 
Centers, such as the ones in Boise and Pocatello. Allowing for those 
veterans who have been seen at both Vet Centers and VA Medical Centers, 
a total of 14,697 veterans have been evaluated or treated for that 
illness; and 20,818 more have received care for adjustment reactions.
    The difference between adjustment reactions and PTSD can best be 
described in this way: adjustment disorders may result in temporary 
impairment in veterans' social or occupational functioning--or in 
symptoms and behaviors that are beyond the normal expected response to 
stress. They are resolved either when the stimulus is removed, or when 
supportive therapy allows the patient to better adapt to his or her 
environment. Post Traumatic Stress Disorder, however, is not 
necessarily time-limited in its course, and it always requires a higher 
level of medical intervention.
    For veterans who do not have PTSD, our 207 community-based Vet 
Centers can provide interventions at a local level that are often all 
that are needed to resolve a veteran's symptoms and allow him or her to 
return to normal life. Veterans with more severe mental health issues 
receive comprehensive care through a continuum of services designed to 
meet their changing needs. The intensity of care ranges from acute 
inpatient settings to residential services for those who need 
structured support before returning to the community to a variety of 
outpatient services, including day hospitals and day treatment 
centers--all of which, by the way, are available at our Boise hospital. 
If it is needed, we can provide long-term inpatient or nursing home 
care as well.
    Mr. Chairman, VA is able to care for all OIF and OEF veterans who 
will develop, or have developed, mental health issues; not only in 
Idaho but throughout the United States. This fiscal year, we have 
allocated $100 million to implement new initiatives to improve our 
mental health services, and the President's Budget Amendment for Fiscal 
Year 2006, which you so ardently have championed, will provide us with 
sufficient funding to not only care for all veterans with PTSD, but to 
provide for all the health care needs of OIF and OEF veterans in the 
world class manner to which they are entitled.
    VA is also prepared to provide specialized care for servicemembers 
and veterans who have sustained severe and multiple catastrophic 
injuries. Since the war began, four regional Polytrauma Centers have 
served as regional referral centers for individuals who have sustained 
serious disabling conditions in combat. The nearest center to Idaho is 
in Minneapolis, but we also have centers in Palo Alto, California, 
Richmond, Virginia, and Tampa, Florida.
    Patients treated at these facilities may have traumatic brain 
injuries--sometimes in combination with amputation, blindness, hearing 
loss, orthopedic injury, or mental health concerns. We provide specific 
rehabilitation programs tailored to each veteran's individual issues, 
and manage associated conditions by making sure that specialists from 
other fields work closely with the clinicians who are managing the 
veteran's or servicemember's progress.
    We also ensure that families are fully involved in the recovery 
process--and work with local businesses and others to find them 
discounted housing, meals, and transportation. Should an Idaho resident 
be admitted to one of our Polytrauma Centers, his or her family will 
find a warm welcome and a home away from home if they want to ``be 
there'' to support their loved one's recovery.
    Mr. Chairman, I am proud to join you and the citizens of Idaho as 
we await the safe return of the 116th Cavalry Brigade from their duty 
on foreign shores. On behalf of all VA employees in this State, and 
every VHA employee Nationwide, I thank the Idaho patriots who have 
served our Nation in uniform in this war, and in all our previous wars. 
I am honored, and humbled, to have the opportunity to work together 
with you to meet our Nation's commitment to them and their comrades.

    Chairman Craig. Dr. Perlin, thank you very much for that 
very thorough statement. Now let us to turn to Diana Rubens, 
Director of the Western Area Office of Veterans Benefits and 
Administration. Again, welcome before the committee.

 STATEMENT OF DIANA M. RUBENS, DIRECTOR, WESTERN AREA OFFICE, 
               VETERANS BENEFITS ADMINISTRATION, 
        DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY 
         JIM VANCE, DIRECTOR, BOISE VA REGIONAL OFFICE

    Director Rubens. Thank you, Chairman Craig, Governor 
Kempthorne. I would echo Dr. Perlin's sentiments to not only 
the two of you, but to all of Idaho for the support to the 
116th. To the families and the communities that have supported 
them throughout this, we join you in preparing to welcome them 
back.
    My testimony today addresses three related topics: The 
program that the Veterans Benefits Administration has developed 
to ease that transition of the OEF and OIF veterans back in 
civilian life; our outreach efforts, especially those directed 
at members of the National Guard and Reserves; and the specific 
plans of the Boise Regional Office for the return of the Idaho 
National Guard units later this year.
    Veterans returning from Iraq and Afghanistan are eligible 
for an array of benefits offered throughout the VBA, including 
disability compensation and related benefits; education and 
training benefits; vocational rehabilitation and employment; 
home loan guarantees; life insurance; and the burial benefits 
and dependents' and survivors' benefits. In addition to 
providing this broad array of benefits, the VBA is reaching out 
to OEF/OIF veterans with programs to assist them in readjusting 
to civilian life and outreach efforts to inform them about our 
many benefits and services. I will briefly discuss some of 
these assistance programs and then talk about our outreach 
efforts. Obviously, my focus is going to be on the outreach to 
the members of the National Guard and Reserves, which of course 
are of particular interest to you and all of Idaho.
    The VBA is actively involved in educating servicemembers 
about VBA benefits and helping servicemembers soon to be 
released from active duty with the processing of claims and 
insuring a smooth transition from military duty back into the 
civilian life. Our Benefits Delivery at Discharge Program, 
Transition Assistance Program, and Seamless Transition 
Initiative all exemplify VBA's active participation in the 
readjustment process.
    The Benefits at Delivery Discharge Program, or BDD, is in 
place at 140 military installations around the country and 
overseas. Under this program, active duty servicemembers within 
180 days of separation are encouraged to file disability 
compensation claims with VA staff who are serving at military 
bases, either on a full-time or itinerant basis. Service 
members can complete the necessary physical examinations and 
have their claims evaluated before or closely following their 
military separation dates. In most cases, disabled 
servicemembers participating in our BDD program begin receiving 
VA disability compensation benefits within 60 days of their 
separation from active duty in hopes of serving to ease that 
transition from active duty to civilian status.
    In addition to the BDD program, VBA representatives conduct 
briefings overseas under arrangement with the Department of 
Defense. VBA provides two tours each year, with six to seven 
VBA representatives providing a service for each tour. Each is 
home-based at a major military site and provides services at 
the site and the surrounding areas, as well.
    Returning servicemembers, including members of the National 
Guard and Reserves, may also elect to attend this formal 3-day 
workshop provided through the Transition Assistance Program, a 
joint effort of VA, the Department of Defense, and the 
Department of Labor. At these TAP workshops, servicemembers are 
fully briefed on VA benefits available to them and encouraged 
to apply for all benefits to which they are entitled. In fiscal 
year 2004, VBA conducted more than 7,200 briefings attended by 
over 260,000 servicemembers and their families. VBA military 
service coordinators personally interviewed more than 115,000 
servicemembers.
    Seamless Transition is another important initiative aimed 
at helping returning veterans make a smooth transition back 
into civilian life. In 2003, VA began placing Veterans Service 
Representatives at key military treatment facilities, or MTFs, 
where severely wounded servicemembers from OEF/OIF are 
frequently sent. Representatives of the VBA Benefits Delivery 
at Discharge office in Germany also work closely with the staff 
at the Landstuhl Army Medical Center to assist with returning 
injured servicemembers who are patients at that facility.
    VBA also has full-time staff at Walter Reed, Bethesda, both 
in the D.C. area, as well as staff who work with family members 
temporarily residing at the Fischer House. Similar teams work 
with patients and family members at three other MTFs serving as 
key medical centers for seriously wounded returning troops: 
Eisenhower, Brooke, and Madigan Army medical centers. As of 
January 2005, over 4500 hospitalized servicemembers were 
assisted in these facilities.
    Outreach specifically for our National Guard and Reserve 
members is part of the overall VBA outreach program. In 
peacetime, this outreach is generally accomplished on an ``on 
call'' or ``as requested'' basis. With the activation and 
deployment of large numbers of Reserve and Guard members 
following the September 11, 2001 attack on America and the 
onset of OEF/OIF, VBA outreach to this group has been greatly 
expanded.
    Outreach efforts to National Guard and Reserve members take 
on critical importance in light of the composition of our 
forces. Return and deactivation of Reserve/Guard units presents 
significant challenges to VA because rotation is irregular and 
the servicemembers can spend an extremely short period of time 
at military installations prior to being released back to their 
Guard and Reserve components. For this reason, outreach efforts 
are focused at the local armories or Reserve centers within 2 
months of deactivation. Last year, the VA representatives 
conducted 1400 pre- and post-deployment briefings attended by 
over 88,000 National Guard and Reserve members.
    In addition to these briefings and our other outreach 
efforts to reach out in person to returning veterans, VA has 
developed other methods of dispensing information. All 
separating and retiring servicemembers, including Reserve and 
Guard members, receive that ``Welcome Home Package'' Dr. Perlin 
alluded to which Secretary Nicholson mails out, including a 
copy of the pamphlet, as well as a summary of VA benefits and a 
welcome home letter. In an effort to make sure we don't miss 
anybody, we send out a follow-up package in 6 months.
    Outreach letters from the Secretary have been sent to 
approximately 240,000 returning servicemembers who have 
separated or retired from active duty. Finally, of course, VA 
has created a new Internet Web page especially for veterans 
returning from Afghanistan or Iraq. Information specific to 
National Guard and Reserves is also included on this Web page, 
along with links to other Federal benefits that may be of 
interest to returning servicemembers.
    Turning to the local environment, in an effort to begin to 
prepare for the 116th's return and its associated Idaho 
National Guard units, they will be processing through Fort 
Lewis, Washington prior to returning home. Fort Lewis happens 
to be one of our largest BDD sites. In that sense, the Boise 
Regional Office is working with Seattle to begin to prepare our 
outreach to those returning servicemembers.
    Obviously, I think the other perhaps most important piece 
is our coordination at the local level with the 116th here from 
the regional office. The National Guard chairs a series of 
regular meetings of our Inter-Service Family Assistance 
Committee, and they're attended by VBA, VHA, the Idaho Division 
of Veterans Services, the Department of Labor, service 
officers, and others. Beginning last month, the regional office 
and other committee members accompanied the Guard to weekend 
briefings for family members of those deployed in Iraq. These 
briefings will continue until the end of October. A similar 
series of briefings for Guard members and their families will 
begin after they return to Idaho.
    I mentioned the coordination with our Seattle regional 
office to ensure that the Guard's liaison officials learn the 
VA claims processing before the 116th arrival at Fort Lewis. In 
addition, the local Seattle regional office OIF/OEF coordinator 
works with the Boise OIF/OEF coordinator to ensure that anytime 
in the preliminary days prior to the full arrival of the 
brigade an Idaho veteran returns through that facility they 
contact the regional office here in Boise to let them know 
we've got somebody on the way home.
    Obviously, important too, is the coordination with the VA 
medical centers. Our local OIF/OEF coordinator maintains 
regular contacts with counterparts in all the VA medical 
centers to support Idaho's veterans. When an OIF/OEF veteran is 
either at one of these medical centers for care, the 
coordinator will refer them to the regional office for 
benefits, and likewise, if we have an OIF/OEF veteran who comes 
into the regional office, we'll ensure that they've been made 
aware of the services at the medical centers and contact that 
medical center coordinator.
    Additionally, VET Net is a committee chaired by the 
Department of Labor and made up of many of the same 
participants as the Inter-Service Family Assistance Committee. 
The focus is to support members of the Guard after the 
transition. VET Net will coordinate access to agencies that 
help with issues such as job security, education, financial 
concerns, and other post-separation matters. VBA will be an 
active participant.
    Coordination with our service organization partners is so 
important in claims processing for VBA. Particularly, the Idaho 
Division of Veterans Service and the Disabled American Veterans 
have service officers located in the Boise Regional Office. 
Both organizations participate in the VET Net and the Idaho 
Service Family Assistance Center to make briefings and are an 
important part of the plan for outreach to members of the Guard 
when they return in December.
    Of course, media outreach whereby the regional office 
director is trying to ensure that he can do all that he can to 
get the word out through all forms of media to ensure that 
they're aware that our benefits are available and accessible to 
them when they return home.
    I hope this testimony has given you and the committee a 
better understanding of the benefits, services, and outreach 
being provided to veterans of the OIF/OEF conflicts. I want to 
assure you that the Boise Regional Office is ready and eager to 
serve the men and women coming home to Idaho with the National 
Guard. Thank you.
    [The prepared statement of Director Rubens follows:]
 Prepared Statement of Diana M. Rubens, Director, Western Area Office, 
    Veterans Benefits Administration, Department of Veterans Affairs
    Mr. Chairman, I appreciate this opportunity to testify today on the 
Veterans Benefits Administration's (VBA's) response to the needs of 
veterans returning from Operation Enduring Freedom and Operation Iraqi 
Freedom (OEF/OIF). I am accompanied by Jim Vance, Director of the VA 
Regional Office (RO) here in Boise.
    My testimony addresses three related topics: the programs VBA has 
developed to ease the transition of OEF/OIF veterans back into civilian 
life; our outreach efforts, especially those directed at members of the 
National Guard and Reserves; and the specific plans of the Boise 
Regional Office for the return of Idaho National Guard units later this 
year.
    Veterans returning from Iraq and Afghanistan are eligible for a 
full array of benefits offered through VBA. These include:
    <bullet> Disability Compensation and Related Benefits
    <bullet> Education and Training Benefits
    <bullet> Vocational Rehabilitation and Employment
    <bullet> Home Loan Guaranties
    <bullet> Life Insurance
    <bullet> Burial Benefits
    <bullet> Dependents' and Survivors' Benefits

In addition to providing this broad array of benefits, VBA is reaching 
out to OEF/OIF veterans with programs to assist them in readjusting to 
civilian life, and with outreach efforts to inform them about our many 
benefits and services. I will briefly discuss some of these assistance 
programs and then talk about our outreach efforts. My focus will be on 
outreach to members of the National Guard and Reserves, which are of 
particular interest to you and to Idaho's returning veterans.
             programs to assist returning oef/oif veterans
    VBA is actively involved in educating servicemembers about VBA 
benefits, in helping servicemembers soon to be released from active 
duty with the processing of claims, and in ensuring a smooth transition 
from military duty back into civilian life. The Benefits Delivery at 
Discharge Program, Transition Assistance Program, and Seamless 
Transition Initiative all exemplify VBA's active participation in the 
readjustment process.
    The Benefits Delivery at Discharge Program, or BDD, is in place at 
140 military installations around the country and overseas. Under this 
program, active duty servicemembers within 180 days of separation are 
encouraged to file disability compensation claims with VA staff who are 
serving at military bases either on a full-time or itinerant basis. 
Servicemembers can complete the necessary physical examinations and 
have their claims evaluated before or closely following their military 
separation dates. In most cases, disabled servicemembers participating 
in the BDD program begin receiving VA disability compensation benefits 
within 60 days of their separation from active duty, which serves to 
ease the transition from active duty to civilian status.
    In addition to the BDD program, VBA representatives conduct 
briefings overseas under arrangement with the Department of Defense 
(DoD). VBA provides two tours each year with six to seven VBA 
representatives providing this service for each tour. Each is home-
based at a major military site and provides services at the site and in 
surrounding areas.
    Returning servicemembers, including members of the National Guard 
and Reserves, may also elect to attend the formal 3-day workshops 
provided through the Transition Assistance Program (TAP), a joint 
effort of VA, the Department of Defense, and the Department of Labor. 
At TAP workshops, servicemembers are fully briefed on the VA benefits 
available to them and encouraged to apply for all benefits to which 
they are entitled. In fiscal year 2004, VBA conducted more 7,200 
briefings attended by over 260,000 servicemembers and their families. 
VBA military service coordinators personally interviewed more than 
115,500 servicemembers.
    Seamless Transition is another important initiative aimed at 
helping returning veterans make a smooth transition back into civilian 
life. In 2003, VA began placing Veterans Service Representatives at key 
military treatment facilities (MTFs) where severely wounded 
servicemembers from OEF/OIF are frequently sent. Representatives of the 
VBA Benefits Delivery at Discharge office in Germany work closely with 
the staff at the Landstuhl Army Medical Center to assist returning 
injured servicemembers who are patients at that facility and family 
members temporarily residing at the Fischer House.
    Since March 2003, a VBA OEF/OIF coordinator is assigned to each 
MTF. Full time staff members are assigned to the Walter Reed Army 
Medical Center in Washington, DC, and the Bethesda Naval Medical Center 
in Maryland. Similar teams work with patients and family members at 
three other MTFs serving as key medical centers for seriously wounded 
returning troops: Eisenhower, Brooke, and Madigan Army Medical Centers. 
Itinerant service is conducted at all other major military treatment 
facilities. As of January 2005, over 4,500 hospitalized returning 
servicemembers were assisted through this program at Walter Reed, 
Bethesda, Eisenhower, Brooke, and Madigan. Since March 2003, each claim 
from a seriously disabled OEF/OIF veteran has been case managed for 
seamless and expeditious processing.
                outreach to national guard and reserves
    Outreach to Reserve/Guard members is part of the overall VBA 
outreach program. In peacetime, this outreach is generally accomplished 
on an ``on call'' or ``as requested'' basis. With the activation and 
deployment of large numbers of Reserve/Guard members following the 
September 11, 2001, Attack on America, and the onset of OEF/OIF, VBA 
outreach to this group has been greatly expanded.
    Outreach efforts to National Guard and Reserve members take on 
critical importance in light of the composition of our forces. Return 
and deactivation of Reserve/Guard units presents significant challenges 
to VA because rotation is irregular and the servicemembers spend 
extremely short periods of time at military installations prior to 
being released to their Guard or Reserve components. For this reason, 
outreach efforts are focused at the local armories or Reserve centers 
within 2 months of deactivation. Last year VA representatives conducted 
1,400 pre- and post-deployment briefings attended by 88,000 National 
Guard and Reserve members.
    In addition to these briefings and our other efforts to reach out 
in person to returning veterans, VA has developed other methods of 
dispensing information. All separating and retiring servicemembers 
(including Reserve/Guard members) receive a ``Welcome Home Package'' 
that includes a letter from the Secretary, a copy of VA Pamphlet 21-00-
1, A Summary of VA Benefits, and VA Form 21-0501, Veterans Benefits 
Timetable, through VADS (define). Similar information is again mailed 
with a 6-month follow-up letter.
    Outreach letters from the Secretary of Veterans Affairs have been 
sent to approximately 240,000 returning servicemembers who have 
separated/retired from active duty. Enclosed with the letters are 
copies of VA Pamphlet 21-00-1, A Summary of VA Benefits, and IB 10-164, 
A Summary of VA Benefits for National Guard and Reserve Personnel.
    Finally, VA has created a new Internet Web page especially for 
veterans returning from Afghanistan and Iraq. Information specific to 
National Guard and Reserves is also included on this Web page, along 
with links to other Federal benefits that may be of interest to 
returning servicemembers.
          vba plans for the return of the idaho national guard
    The 116th Brigade Combat Team (BCT) and its associated Idaho 
National Guard units will return from deployment to Iraq in December. 
They will all process through Ft. Lewis, Washington prior to returning 
home. The Boise VA Regional Office is preparing for the return of the 
men and women of the 116th BCT and other National Guard units. The 
following are some of the activities already underway:
    1. Coordination with VA Medical Centers. The Boise RO's OIF/OEF 
Coordinator maintains regular contacts with his counterparts in all of 
the VA Medical Centers (MCs) that support Idaho's veterans. When OIF/
OEF veterans go to one of these MCs for care, the coordinators refer 
them to the Boise RO for benefits. Conversely, the RO refers all 
veterans who come there first to the MCs.
    2. Coordination with the Seattle RO. The Boise RO is working with 
the Seattle RO to ensure that the Guard's liaison officials learn the 
VA claims process before the 116th arrives at Ft. Lewis. In addition, 
the Seattle RO's OIF/OEF Coordinator e-mails Boise pertinent 
information every time an OEF/OIF veteran with an Idaho home address 
files an application for benefits at either Ft. Lewis or Madigan Army 
Medical Center.
    3. Coordination with the 116th BCT. The National Guard chairs a 
series of regular meetings of the Inter-Service Family Assistance 
Committee, or ISFAC. These meetings are attended by VBA, VHA, the Idaho 
Division of Veterans Services (IDVS), the Department of Labor, service 
officers, and others. Starting in July, the RO and other committee 
members accompany the Guard to weekend briefings for the family members 
of those deployed to Iraq. These briefings will continue until the end 
of October. A similar series of briefings for Guard members and their 
families will start after they are back in Idaho.
    4. VET Net. VET Net is a committee chaired by the Department of 
Labor and made up of many of the same participants as the ISFAC. Its 
focus is to support the members of the Guard after their transition. 
VET Net will coordinate access to agencies that help with issues such 
as job security, education, financial concerns, and other post-
separation matters. VBA will be an active participant.
    5. Coordination with Service Organizations. The Idaho Division of 
Veterans Services and the Disabled American Veterans (DAV) have service 
officers located in the Boise RO. Both organizations attend the ISFAC 
and VET Net briefings, and are an important part of the plan for 
outreach to members of the Guard when they return in December.
    6. Media Outreach. On July 4th, the Idaho Statesman printed a 
letter from the RO Director about veterans benefits and how to contact 
and locate the Boise RO. More media outreach is planned.
    7. Coordination with the city of Boise. ``The biggest party the 
city has ever seen'' is how Boise's Mayor David Bieder describes plans 
for the Guard's December homecoming. The Boise RO has contacted the 
city and expects to play an active role in that party.
    Mr. Chairman, I hope this testimony has given you and the committee 
a better understanding of the benefits, services, and outreach being 
provided to veterans of the OEF/OIF conflicts. I also want to assure 
you that the Boise Regional Office is ready and eager to serve the men 
and women coming home to Idaho with the National Guard. This concludes 
my testimony. Mr. Vance and I will be pleased to answer any questions 
you might have.

    Chairman Craig. Diana, thank you. Thank you very much. Jim 
and Wayne and Max are here as backup for those of you in the 
audience who think I might be passing the buck. We're not. It's 
because in questions and answers, if there are any additional 
comments or thoughts that need to be added to the questioning 
of both Dr. Perlin and Ms. Rubens, we would expect them to 
respond.
    Well, again, let me thank you both for that very thorough 
testimony. Now let's see if we can break it into parts as it 
relates to Idaho specifically. I think, Dr. Perlin, the 
examples being implemented on the national level are very 
impressive. I've monitored them closely the last 6 months, and 
they continue to grow and to improve. The Seamless Transition 
that we talked about, when I was in Landstuhl, Germany at the 
critical surgical hospital unit there, we met with VA officials 
who were there on location to assist these young men and women 
as they passed through.
    I guess the question that I would have as it relates to 
Idaho specifically, obviously I'm extremely pleased with the 
training that's now going on in the VA. Employees understand 
our Nation's newest veterans and their needs.
    How many of Idaho's VA employees have received this 
training? While the video is surely helpful, it seems this 
approach is limited. What other training is being done to 
prepare VA staff to work with these new Idaho veterans?
    Under Secretary Perlin. Thank you, Chairman Craig, for the 
question. Thank you for your support of the Seamless Transition 
process beginning even outside of the United States and 
extending to forward hospitals, because the process really 
begins there. I think it would be impossible for any member of 
the VA's family today to not be aware of the special needs of 
our newest combat veterans. There's a heightened sense of 
awareness to make sure the outreach, that that is a consistent 
part of every communication that and other leadership of the VA 
provide. And this is part of the message we provide at the 
network level.
    Max Lewis is identified as Director of the network of which 
Boise VA Medical Center is a part. Wayne Tippets, the Director 
of our medical center here in Boise, I can assure you, is 
absolutely passionate about getting the message out to these 
men and women returning from having served. They need to be 
aware of the needs of returning servicemembers.
    Let me answer briefly in terms of the outreach: As I 
mentioned, adjustment reactions may be a part of the normal 
experience, a normal reaction for abnormal stresses. We want to 
make sure we don't overly medicalize or make pathological those 
sorts of things. And we support communities particularly in 
areas like Idaho where the community, and the servicemembers 
can be very dispersed geographically. So the role of community 
and social organizations is so tremendously important in terms 
of providing support.
    More formalized, these ``VET CENTERS'' centers provide 
outreach around the State as do our outpatient clinics. If and 
when the veterans return to the medical centers, we can provide 
them with state-of-the-art care for the physical illnesses, 
which I mentioned may run the gamut from musculoskeletal, 
dental, to mental health injuries and adjustment reaction, 
PTSD.
    The skill set at Boise is an example of among the best in 
the Nation. Dr. Dewey is chief of mental health here, a noted 
researcher, and well published. He will lead the team that 
understands the experience of war to provide care.
    Let me turn to Mr. Tippets to talk about how you prepared 
your staff.
    Director Tippets. Yes. Thank you. We have 700-plus 
employees at the medical center, and we are in the process of 
turning all of our staff, not completely through the process, 
but we'll have all of them trained by the time the 116th comes 
back to Idaho.
    I would say thus far we've had 147 returning veterans come 
into the hospital. What the process is, they come in to our 
coordinator, who is a social worker. The coordinator talks to 
those veterans, and we determine if they need anything 
immediately. And if they do, they're referred to the 
appropriate clinic.
    Our experience thus far has been sort of broken down into 
three major areas. They're requesting orthopedic care, 
rehabilitation care, and mental health care. We obviously give 
these veterans priority when they come into our hospital, and 
we make sure they're seen immediately.
    Thank you, Senator Craig.
    Acting Director Lewis. Senator, if I could also add, the 
facilities at Walla Walla and Spokane, which are also 
responsible for treating returnees of the 116th, are also in 
the process of providing that training. It's something that we 
discuss every week when I talk to the local directors. As Dr. 
Perlin said, it's something that is discussed every week, 
almost every week on the national calls and it's reinforced 
constantly.
    We also have within our facilities a number of returning 
OEF/OIF folks that are not only from here in Idaho but in 
Washington State, Oregon, Alaska as well, and they help elevate 
the awareness of the needs and requirements of returning 
veterans.
    Chairman Craig. Well, thank you very much. Wayne, you 
mentioned 147 you've had contact with. Let me take that a step 
further. All of you might react to this. Obviously, with this 
large number returning sometime later in the year, the 
briefings they receive as they leave Fort Lewis is one thing. 
When they get here to Idaho, can you tell me how many briefings 
you anticipate, how you contact them, where are those briefings 
going to take place, and how will people access them?
    Under Secretary Perlin. It starts at the national level, 
Senator. It gives us a context of certain materials to look at, 
at Fort Lewis, because the process really begins the moment 
they return. We recognize when men and women serving in Iraq 
get back, they want to get back to their families. They don't 
necessarily want to sign up for a line of additional briefings 
and that sort of information. So we recognize we have a limited 
opportunity and limited attention span.
    What we found is: if we have the opportunity to allow a 
servicemember to speak with family, to reacquaint themselves, 
their attention is actually more focused. We realize that the 
issues may not be immediate, that their interest in accessing 
services may not be immediate.
    But at the transition briefings, they get a package of 
materials. Those materials take many forms. Not only the 
brochures that I showed to you for returning Reservists and 
Guards and active duty servicemembers but they are actually 
given a little miniature CD they can put on the computer as 
well. They log right onto Web sites. We give them a little 
wallet card to put in their wallet. One of our Global War on 
Terrorism outreach coordinators actually was called up and just 
came back. He was telling me that when he got back, having been 
on the receiving side, his attention was not as great as he 
thought it would be because this was in fact his area of 
interest. So the suggestion of the returning servicemembers 
was, give us something to take away so we can access it later. 
These little wallet cards are part of that.
    Here in Idaho, Dan Ashley has been hired as the Global War 
on Terrorism outreach coordinator. He returned himself in March 
2005 as staff company commander, and on May 31st was hired into 
the VET CENTER, so there's an active and continuing outreach. 
The initial connections are established there. So let me turn 
now from that initial set of benefits and health services and 
outreach counselors of veteran centers to Mr. Wayne Tippets, 
who would pick it up from what happens at the point that the 
veteran has either received outreach or comes in to request 
services.
    Director Tippets. I wonder, with your permission, Senator, 
if I could ask one of my staff to tell you what we've been 
doing or what we plan to do across the State with some of the 
families. Mark Heilman, would you respond to our outreach 
efforts in preparation for the return of the 116th.
    Mr. Heilman. Thank you, Senator Craig, Governor Kempthorne. 
We've been involved at the VA meeting with the group that one 
of the panel members discussed, the coordinating groups who 
plan meetings for family members and the soldiers when they 
come home. We've had ten family education days planned. We had 
one last Saturday, 23rd of July. The next one is this Saturday 
in Caldwell. Then they'll travel around the State to Twin 
Falls, Burley, Pocatello, Idaho Falls, and up north to 
Lewiston, Grangeville, and onward through the armories.
    And those will be the dates when a number of groups from 
Idaho--they mentioned them already--the VA regional office, the 
Department of Labor, all the groups that have been meeting for 
about 6 months to plan these days, present information about 
how to access and use the services that we have. Now, when 
those 10 days are finished and the returnees come home, we will 
again do those 10 days and go back out and talk to the veterans 
themselves. Now it's meeting with the families. So that's what 
we're doing at the VA, meeting with a group that's been 
coordinated by the Guard. And we started that already.
    Chairman Craig. Thank you.
    Under Secretary Perlin. If I might, Mr. Chairman, I'd like 
to recognize Colonel Woodby, Colonel Spofford, and General 
Lafrenz, who have been part of an incredible effort to make 
sure there's coordination and communication between the 
National Guard and different elements of VA and State 
government.
    Chairman Craig. I appreciate that, and we'll have the 
General before us in a few moments to visit about that. Dr. 
Perlin, you mentioned outpatient clinics and the distance of 
Idaho. Let me reference Pocatello.
    This clinic has a wide service area and provides care to a 
large number of veterans in largely southern-southeastern 
Idaho. It's my understanding that one of their two doctors is 
planning to retire in the next few months. The last time a 
physician was needed, it took over a year and I must say 
personal involvement by me to get another physician hired. A 
great complication resulted from that.
    I'm sure you would agree that the potential for added 
volume as is expected occurs with these returning veterans and 
that we're going to need to be fully staffed. I'm going to put 
you on the spot. How long can we wait for another doctor to get 
to the Pocatello clinic?
    Under Secretary Perlin. First, let me thank you again, Mr. 
Chairman, for your incredible support of the VA additional 
resources both in 2005 and 2006. I have in front of me a map. 
I'm beginning now to appreciate the challenges of Idaho 
geography in a way that one doesn't from Washington.
    Chairman Craig. Dr. Perlin, if you live in Salmon and you 
have to go to Salt Lake instead of Pocatello, it is a full 
day's trip one way. That is Idaho's geography.
    Under Secretary Perlin. Mr. Chairman, not to duck this 
question, because I want to assure you that with the resources 
you bestowed upon us, we will make sure that the Pocatello 
clinic is well staffed and fully staffed. Let me ask Mr. 
Tippets for any knowledge that you may have that relates to 
Salt Lake City. I don't know if you have the direct knowledge.
    Director Tippets. That does relate to Salt Lake City. I am 
aware of the issue that you're talking about that happened a 
while back, but I don't know any more about it, Senator Craig.
    Under Secretary Perlin. Sir, I will take this issue back to 
Washington, and we will be giving the chief of the Salt Lake 
City VA a call to make sure that this is well taken care of and 
anticipated. Thank you for the alert.
    Chairman Craig. Thank you. Before I ask any additional 
questions of Diana, I think the Governor has given me the 
appropriate segue to turn to him for any questions he may have. 
He said when you said, ``Dr. Perlin, we'll take it back to 
Washington to take a look at it,'' he said, ``Oh, no.''
    Under Secretary Perlin. I promise to come back to Idaho so 
we'll do this right.
    Chairman Craig. With that, let me turn to Idaho's Governor 
Kempthorne.
    Dirk.
    Governor Kempthorne. Mr. Chairman, thank you very much. Dr. 
Perlin, can you tell me what has been the national experience 
as we have had troops return in dealing with posttraumatic 
stress disorder? When do you begin to see that? Because I'm 
under the impression that there's a honeymoon period. You get 
back. You're so excited to be reunited with the family. But is 
it 60 days, 90, 180? I know there's not a specific date, but 
when do you think it occurs?
    Under Secretary Perlin. Governor Kempthorne, thank you very 
much for your question that really is absolutely clinically. 
For the veterans coming back, there is a period of excitement. 
That is not the day that they may have the challenges. Just as 
you and Chairman Craig have indicated, maybe that point--where 
a servicemember after having been in combat and been with his 
unit--comes back is then the period of time where the veteran 
servicemember is most vulnerable.
    And that's why it's so incredibly important that we provide 
families and servicemembers with the information so that they 
can access services of the Department of Defense and VA. But 
sir, it's also the reason that the Department of Defense has 
issued a requirement that returning servicemembers be contacted 
in 60 to 90 days following their return to check in and see 
that they're doing OK.
    So we need to make sure that the outreach is not just the 
hero's welcome home but, in fact, heroic support as long as 
necessary.
    Governor Kempthorne. Dr. Perlin, when you say that the 
soldier's contacted in 60 to 90 days, each and every soldier? 
And what's the means of contact?
    Under Secretary Perlin. This is a new Department of Defense 
requirement that there be a personal contact to returning 
servicemembers. And I believe that they're doing this by 
telephone. As it's something that's occurring within the 
Department of Defense in a new program, I have this knowledge 
of it, but I have to actually develop additional details. It is 
brand new and would support, and specifically recognize the 
issue that you address that the moment of return they'll be OK, 
but the months after may be the period of running into some 
troubles.
    Governor Kempthorne. I'd be interested if it's a phone call 
and a message left on a message machine is a contact made and 
we move on or if it's a return call until there is a connection 
with the soldier.
    Under Secretary Perlin. I don't want to overly speculate. 
My understanding is that they have to have a positive contact, 
a conversation or communication, not just a one-way 
interaction.
    Governor Kempthorne. I'd be interested if you could have 
your department provide us with the information on that.
    Under Secretary Perlin. Yes, sir.
    Governor Kempthorne. And you and Director Rubens have 
provided an impressive list of services that are available to 
returning soldiers. Are they automatically eligible for each 
and every one of those or must they apply?
    Under Secretary Perlin. Let me, if I might, describe first 
the health benefits, Governor, and then turn to Ms. Rubens for 
discussion of the other benefits for veterans, for which 
they're eligible. For any veteran, any servicemember who served 
in a Presidentially declared combat zone, they are absolutely 
eligible for access to healthcare without co-payment for any 
illness or injury that in any way may be related to their 
service. They have this eligibility for a period of 2 years. 
And following the 2 years, they are eligible to continue with 
VA at the highest level of priority for which they qualify. If 
they have service- connected injuries, that takes them to the 
highest levels of priority for service. So they would be able 
to access any service that the VA offers in terms of medical 
care just by enrolling for service.
    Let me turn to Ms. Rubens to describe benefits.
    Director Rubens. Thank you. Yes. Governor Kempthorne, in 
fact, as they come back and want to take advantage of our 
benefits, we do have to have some application from them 
particularly for the compensation benefits because what we need 
to know is what kinds of injuries have they incurred.
    As a part of that process, particularly for compensation, 
we will do a thorough review for their service medical records. 
For instance, if there's something that they overlook, we will 
draw that out and take that, quite frankly, as an inferred 
claim that we found in their records to ensure that that's 
addressed in their claims as well.
    And then of course, a big part of this for us is that 
ongoing outreach effort to ensure that they know we're here, 
that we're easily accessible either through the Internet, 
through coming into an office, or calling us on the phone. And 
we'll work with them and encourage them to apply for any and 
all benefits to which they might be entitled.
    Governor Kempthorne. When you state, Director Rubens, that 
they will be asked to identify what injuries they've had, now 
if it is an emotional, if there are scars that do not 
physically show up, they may not know that.
    Director Rubens. Right. That's part of, I think, the 
ongoing coordination between VBA and VHA is as veterans perhaps 
come in for other treatment of other things, if the doctor will 
make notes of those that we'll look to work with them. The OIF/
OEF coordinators at each of our facilities work to ensure that 
if there are things that come up, particularly regarding this 
combat-injured veteran, that we notify each other of what's 
going on and try to work to ensure that those things are there.
    As it stands now, we continue of, course, to see things 
develop later and work to identify the stressor that may have 
caused the incident; any other things that we can do to ensure 
that those conditions that occurred while they were in service, 
we'll find a way to try to get those services connected.
    Governor Kempthorne. I think it's important to insert at 
this point, the questions we're asking and the scenarios that 
we're laying out really may be described as worst case. We have 
2,000 soldiers that will be coming home. It's going to be 
awesome. It's going to be positive. It's going to be a 
celebration. We just want to make sure that we're ready for any 
contingency, even if it's just one soldier. So again, the 
community and through the families and all, what we're asking 
and probing isn't necessarily going to happen, but we want to 
make sure we're ready.
    Under Secretary Perlin, you made some very positive 
comments, and I appreciate it, about mental health and its 
reality. Some soldiers have indicated that there is a concern 
on the part of the soldier to raise that issue because it may 
go on record and then that record follows them. Can you address 
that?
    Under Secretary Perlin. Governor Kempthorne, that is a very 
sensitive question. Unfortunately, in 2005 there is still 
stigma associated with mental illness, not just in the 
military, but throughout the United States. In fact, in the 
President's new Freedom Commission, one of the top goals is 
that the emphasis should be on recovery, not just maintenance 
of mental illness, but changing one's way of thinking about 
mental illness into a much more positive disease from which one 
recovers. The other primary goal is to reduce the stigma of 
mental illness, and the point is well taken. A servicemember 
may not want to go to his or her commander and say, ``I have 
this problem.'' For that reason, there are both mechanisms that 
make it easier for servicemembers who are in horrific 
circumstances to discuss the circumstances.
    For example, for the Department of Defense--and General 
Lafrenz may want to elaborate on this more--has new combat 
stress teams that are forward units, three individual 
psychologists provide counseling right then and there for 
everybody--assuming that there is the reaction that everybody 
experiences through horrific events in a particular day. There 
are literally more than a couple hundred psychologists out 
there as part of these combat stress teams forward deployed.
    We need to continue outreach when troops come back. This is 
why we're so excited about the outreach counselors, the Global 
War on Terrorism coordinators, because we don't want to 
medicalize. We don't want to give people a label if in fact 
what they're going through is a very human experience, the 
experience of coming to grips with what they had to do in 
circumstance of work, with what they saw and participated in, 
and they have guilt about or feelings that concern them.
    And for that reason, Dan Ashley, is Dan Ashley here by any 
chance?
    Staff. He's in North Carolina. He's back training with the 
Reserves right now.
    Under Secretary Perlin. Great. Thank you very much for that 
update. But this is an individual who obviously is maintaining 
his expertise, who's an outreach counselor, who has shared 
experiences and can intervene and say hey, it's OK to have 
these feelings.
    For those individuals who go beyond what is an adjustment 
reaction on the time-limited condition of increased stress 
response to symptoms that are more consistent with depression 
or PTSD, a much rarer experience, they can refer those 
individuals to appropriate therapy. So proactively reaching out 
and saying OK, everyone gets a combat stress debriefing at the 
front line, proactively reaching out when veterans and 
servicemembers are back in country saying OK, these services 
are available, not overly diagnosing, not overly medicalizing, 
providing support for those who need support. For those much 
fewer because you indicated the preparations are for worst 
case. Let me assure you, we want to join you in preparation for 
the most extreme case so that those services are available; 
again, sir, we approach this with an attitude that the goal is 
recovery.
    Governor Kempthorne. One other question. Director Tippets, 
perhaps Wayne, you can be the one to respond to this. But as 
you stated, you're getting your staff trained and ready for 
this. But do you have sufficient staff for 2,000 returning 
troops or do you need to increase staffing, and if there is a 
shortage of staff so that a service cannot be delivered in a 
timely fashion, are you empowered to privatize and go outside?
    Director Tippets. OK. That's a lot of questions.
    Governor Kempthorne. Two.
    Director Tippets. We think that there's approximately 800 
that will be returning in the Boise area of the 116th. The 
experience in the VA has been about 20, 25 percent, perhaps up 
to a third of those will ask for initial care at the hospital. 
Are we staffed across the board now to take care of that 
number? Probably not. But with the supplemental in 2005 and 
with the increased budget in 2006, we will be staffed to take 
care of those veterans.
    What was the second question?
    Acting Director Lewis. Privatizing.
    Director Tippets. Oh, privatizing.
    Governor Kempthorne. Do you have opportunities?
    Director Tippets. I'll pass that to Mr. Lewis, if that's 
all right.
    Governor Kempthorne. Sure.
    Acting Director Lewis. Privatizing is actually something 
that we have, or fee basis, as we call it, is something that we 
have available. We actually spend about 10 percent of our 
entire network budget on fee programs, which means sending 
patients out to community medical resources. And it is 
something that we will continue to use.
    However, the emphasis is actually on trying to reduce the 
need in that program for so much support and bringing as much 
of it back in-house as we can. Because as good as it is, it 
still is more expensive than what we can provide in-house. It's 
generally about 35 percent more, so even though it's helping us 
maintain our workloads at a current state, it would be better 
for us, it would be better for the patient to actually receive 
the care in-house.
    Director Tippets. Yes. And let me add to that. When we have 
had extensive backlogs the last couple years in specialty care 
areas, we have gone to the community and we have fee'd out 
individuals with cataracts orthopedics and other specialty 
care.
    Acting Director Lewis. If I could just add one other thing, 
too. Going back to the comment that you made about being here 
next week, next month, next year, Wayne as the director at 
Boise may be very aware of what the needs are at his facility. 
And we have in fact started retooling some of the operations at 
the facility, buying new equipment, upgrading some of the 
facilities so that there are resources available for the 
returning veterans from OIF/OEF. So something to the tune of 
about $1.3 million, just in the last month or so. And more 
dollars develop when as Wayne said the budget will increase. 
His operational budget for next year will increase, and we 
have, of course, the supplemental dollars from the 1905 budget.
    Director Tippets. We have anticipated that we will get 
increased demand in areas like dental care. We're currently out 
in the recruitment process for a second dentist at the 
hospital. In addition to that we have a large amount of fee 
money that we recently received to fee out dental cases off the 
waiting list, so we are taking care of that problem. But we do 
anticipate there will also be other areas that the veterans 
will need care.
    Under Secretary Perlin. Governor, one presumption in your 
question is that if the service isn't available at VA, it's 
available in the community. One of the paradoxes of a State 
like Idaho is that the challenge of intensely rural 
environments is that the service may not be there in that 
community. In areas like mental health, the number of mental 
health providers are not distributed across the State. In fact, 
when I looked at some of the network availability for the care 
that we could purchase, the providers were right here in Boise, 
and there were only a limited number.
    So I think this is one of the reasons that I'm so 
interested in telehealth as an example and telemental health of 
making sure that there is care for the veterans out of Spokane, 
the northern part of the State, with that mobile clinic as an 
example. But we need to find new and novel ways to make sure we 
can find bring the care closer.
    Another thing Chairman Craig identified that sometimes some 
servicemembers want the camaraderie, and we want to concentrate 
the expertise at centers of excellence where veterans need and 
expect these services. That's one of the advantages right here 
in Boise; the program in mental healthcare in Boise is 
exceptional by any standard.
    Governor Kempthorne. Dr. Perlin, I would think Senator 
Craig will join me in this, and that is to offer and to 
approach this in partnership so that the return of the 116th 
and Reserve units, Marine Corps, Navy, Air Force, Army, this 
can be the model of how it should be done. And it's going to 
have all elements from rural, urban, the fact that there's an 
entire brigade, the largest in the State's history. So all of 
the elements are there for us to be able to meet the challenge 
and then hold that up as a very positive example of how it 
should be done in any State.
    Under Secretary Perlin. I think it's apparent to everyone 
here how passionate you are, Governor Kempthorne, and you are, 
Chairman Craig, to make sure our Nation's veterans of the 116th 
and fellow servicemembers, Marines, Air Force, the rest of the 
Army, get care in the transition experience that is as good as 
possible. Our commitment is to join you in making this as an 
example of the best it can be.
    Chairman Craig. Governor, thank you for those great 
questions. A couple more questions before I release this panel. 
A local American Legion commander had a question regarding the 
new traumatic injury benefit, we call it Wounded Warrior, that 
will provide retroactivity to severely wounded veterans from 
operations, both Iraqi Freedom and Enduring Freedom.
    Can you update us on the status of VA's efforts to write 
the regulations on that benefit? I know it's out there and it's 
in the process. Since it will apply retroactively, will 
severely injured servicemembers need to file an application for 
the benefit at an appropriate time or will the benefit be paid 
to them automatically?
    Director Rubens. Thank you for that question. I spoke with 
our insurance director this morning to get an update on that 
very issue, and in fact, we, of course, are working closely 
with DOD to implement that process to include the regulations 
and the procedures. While we anticipate that the individual 
services--the Army, the Air Force, the Marines--will be able to 
identify and notify the most eligible veterans and 
servicemembers, at this point they haven't completely finalized 
the process by which that will happen.
    The final proposal from VA went to DoD last week. We 
anticipate to getting a response from them quickly. Our goal, 
of course, is to implement, and then to be able to pay that 
effective December of this year.
    I anticipate that it may be in an effort to ensure DoD will 
provide us with that certification of disability so that we 
might contact that veteran in those cases where he may be, or 
she may be entitled to that benefit, we may send them 
notification and ask them to send us some kind of an 
application that says yes, I would like this benefit, at which 
point in time we'll be able to pay that.
    Chairman Craig. So you are reasonably optimistic that we 
can meet the December timeline?
    Director Rubens. I am.
    Chairman Craig. Great. Thank you. There is a new 
educational assistance benefit that was enacted last year for 
members of the Reserve components who served on active duty for 
extended periods. Many of the 116th will have eligibility for 
this program.
    Is VA prepared to assist them in making sure those claims 
are appropriately handled?
    Director Rubens. Yes, we are. We are currently in the 
process of, if you will, building the system by which we will 
make those payments. We have already begun to collect the 
applications for that benefit from those servicemembers. And we 
have currently some that are already entitled to some 
additional payments, and we're making those. Obviously, when we 
get this payment system in place, we'll go back and 
retroactively ensure they get the remainder of that benefit. 
But we are on track to begin paying October 1.
    Chairman Craig. Thank you. I guess it was you, Wayne, who 
recognized a gentleman here in the audience who responded from 
the mic about the counseling and the informational flow that's 
already underway. The Governor's concern and my concern about 
after the band quits playing, if you will, months down the road 
when there could be some difficulty out there with PTSD or some 
kind of stress-related emotional problem, obviously detection 
of that comes first or I should say recognition of that within 
the family unit. And spouses can play an important role there 
and yet a very difficult role.
    Is the information that's going out to spouses now, and 
families, is there a component of that information that 
includes the ability to detect or to cope with this kind of 
situation?
    Director Tippets. I'm not sure that I can answer that, 
Senator Craig. I wonder, could Dr. Dewey or Mr. Heilman answer 
that question?
    Mr. Heilman. Thank you, Senator Craig, Governor Kempthorne. 
That information is shared as part of that briefing. The Vet 
Center does a fairly extensive briefing on the symptoms of 
posttraumatic stress and some of the things a family member 
might do to recognize that.
    We also do a short presentation on stress management in 
general, just to give them some ideas about spiritual, 
emotional, physical symptoms of stress that they can watch 
amongst themselves, but also with other family members and 
friends of other folks that have serving members. So that is 
addressed in that educational seminar. And there's also packets 
of information we provide with our cards, our names, our phone 
numbers, making ourselves available to them at any time.
    Chairman Craig. Well, thank you very much. Before I turn to 
the Governor for one last question that he has, let me say 
there's also another component in all of this, and I would be 
remiss if I did not recognize all of the representatives from 
the veterans service organizations that were in the audience 
today. That's an outreach and contact that is extremely 
valuable. So let me thank all of you for being with us today 
because clearly that connectivity is extremely valuable as we 
work our way through with these returning warriors, their 
homecoming, and any difficulties they may have. Governor.
    Governor Kempthorne. Senator, thank you. That really is the 
nature of my question. I look out there and these dynamic, 
impressive veterans organizations that are here, they're 
absolutely part of the fabric of this State.
    What is the role of the veterans groups as we all do our 
part?
    Under Secretary Perlin. Thank you, Governor, Chairman 
Craig. Absolutely, a vast majority of services can be provided 
after we provide outreach. I can think of no organizations that 
are more vital to us than our partners in service 
organizations. We work with the service organizations 
nationally, provide information, articles for membership 
magazines, which will be read not only by the servicemember but 
by his or her spouse. And it is an opportunity to make our 
servicemembers aware of the benefits that they've earned and an 
opportunity to become educated; educated on normalcy of 
adjustment reaction, and, in fact, on what may be a little 
beyond that normal experience.
    And when we say services, information about how to access 
services, too. I really appreciate the opportunity to come here 
to Idaho and see the great medical center here and the 
wonderful people who work here and support our servicemembers 
and veterans, and the opportunity to be part of a forum which 
in and of itself, in cooperation with National Guard, community 
partners, with the State agencies, the Governor's office, 
national Senate Committee on Veterans' Affairs, helps to raise 
that awareness.
    And we actually got in the habit of providing articles for 
our service organization magazines. We actually provide that to 
the same Web sites that provide these links to information and 
benefits. I'd be remiss if I didn't throw out this one plug. 
Perhaps there are some people who haven't used VA recently, but 
we have a saying in VA. We're a system of electronic health 
record. We measure ourselves. We hold ourselves accountable to 
you, servicemembers and veterans.
    A recent article in US News and World Report described VA 
as ``military might.' They see our hospitals as models of top 
notch care. That's the first time VA has ever been considered 
in US News and World Report's annual survey of the best 
healthcare.
    Governor Kempthorne. Thank you very much.
    Chairman Craig. Let me thank all of you for your presence 
here today and your participation as we work our way through 
this. One thing that we've learned, I think historically, and 
now in a practical sense but it is true and certainly the VA 
has that reputation. Folks, you're on call. Thank you for being 
here.
    Under Secretary Perlin. Thank you, Mr. Chairman, Governor.
    Chairman Craig. Now let us invite our third panel, General 
Larry Lafrenz, Idaho Adjutant General; David McIntyre, 
President and CEO of TriWest; and Scott Reese, mayor of 
Blackfoot and chairman of the Idaho State Committee, Employer 
Support of the Guard and Reserve.
    Before we start this panel, Governor, why don't you make an 
introduction.
    Governor Kempthorne. We referenced Lance Corporal Ehlke. 
Let me also acknowledge Sergeant Maxwell from the second tank 
who has just returned and commend you for your service and all 
that you mean to us. You, too, are an outstanding inspiration. 
God bless you.
    Sergeant Maxwell. Thank you.
    Chairman Craig. Sergeant, where are you from?
    Sergeant Maxwell. I'm from Emmett, sir.
    Chairman Craig. Great. Thank you.
    Sergeant Maxwell. I came back--I got hit the 26th, came 
back last Thursday.
    Chairman Craig. Thank you very much. Now, let us turn to 
our second panel. Let us turn to you, General, for your 
comment.

   STATEMENT OF MAJOR GENERAL LAWRENCE F. LAFRENZ, ADJUTANT 
                 GENERAL, IDAHO NATIONAL GUARD

    General Lafrenz. Thank you, sir. Senator Craig and Governor 
Kempthorne, I appreciate the opportunity to testify before this 
Committee to share with you what we in the Idaho National Guard 
are doing to prepare for the return of our mobilized soldiers.
    First, healthcare issues are at the top of our list. In 
order to maximize access to healthcare services, soldiers must 
disclose all illness and injuries on our post-deployment health 
assessment form. These citizen soldiers will have been away 
from home for some 18 months, and they will be very anxious to 
return home and may therefore be tempted to remain quiet about 
an ailment or an injury for fear that it will delay their 
return.
    The situation is being addressed by commanders on the 
ground in Iraq, and likewise we are informing family members 
that soldiers who do not declare their medical issues risk not 
being able to receive future care or benefits for those 
conditions. This condition will also be addressed with soldiers 
during the demobilization process at Fort Lewis, Washington.
    Another healthcare issue is the availability of services 
for members who are not near a VA hospital. The veterans 
hospital system is an excellent resource for us all, especially 
here in southwest Idaho. However, soldiers residing away from 
the Boise Valley may not be quite as fortunate. In a rural 
State like Idaho where travel distances and time might be an 
inhibiting factor, it will require close communications between 
the VA and ourselves to ensure that we are maximizing the 
outreach programs and other capabilities to ensure that our 
servicemembers receive the required care in a timely manner.
    In this regard I have recently met with Dr. Jonathan 
Perlin, the Veterans Health Administration's Under Secretary 
for Health, and I am confident that the VA is committed to do 
whatever is required to affect the proper care for our members 
in a timely manner.
    Another potential issue is that when our Guardsmen and 
women mobilized, most lost civilian medical insurance benefits. 
During deployment, the soldiers and their families have been 
covered by TriCare. Our ongoing issue is finding available 
TriCare providers. While great improvements were made to enroll 
doctors, there is still a shortage of providers. And in fact, 
due to actual or perceived administrative requirements, we have 
heard that many providers are not taking any additional TriCare 
patients.
    This fact can pose a significant future concern for our 
returning servicemembers and their families, not to mention 
those family members of future deploying personnel. This is 
particularly noteworthy since soldiers and families are 
eligible for at least 180 days of TriCare coverage after 
redeployment to home stations.
    Currently TriCare has a service center at Mountain Home Air 
Force Base primarily to support the base hospital. We would 
very much like to see TriCare and TriWest invest in another 
center here in Boise to support not only the returning 
soldiers, but those now beginning their deployment cycle, as 
well as other component servicemembers. We are now in the 
process of filing our request to host such a service here at 
Gowen Field.
    So far, I have highlighted my thoughts about Idaho's 
returning Guard members and their families. Today I'd like to 
also extend my sincere thanks to Idaho's employers who have 
been greatly impacted by this mobilization and who overwhelming 
have reacted with magnificent support. In an effort to aid 
employers and their returning employees, we would like to offer 
employers a training package that will assist them in preparing 
for the return of an employee who has just spent the past year 
in a war zone. A training packet such as this is not currently 
available, and so we are working with the Employer Support of 
the Guard and Reserve and other organizations to put together 
one that will be used not only locally but be exported to other 
States as may be required.
    Mr. Chairman, I would like to now address some of the 
initiatives that we have put into place to support our soldiers 
and our airmen and their families. First, we have opened family 
assistance centers in several locations around the State. These 
centers are run by family members and retired Guardsmen. They 
maintain contact with community resources and keep up-to-date 
information on all programs that can help our soldiers and 
their families. These centers have been working closely with 
families, and I expect them to remain a local contact point for 
our soldiers and their families after the redeployment.
    Also, at the beginning of the year, we began conducting 
meetings with soldier and veterans' advocates. The result was 
the establishment of an Idaho Inter-Service Family Assistance 
Committee, which includes senior Idaho National Guard staff 
members, as well as personnel from the Department of Veterans 
Affairs, the VA Medical Center, the State Department of 
Veterans Services, the Vet Center, the U.S. Department of 
Labor, the State Department of Commerce and Labor, and the 
State Department of Health and Welfare, as well as other 
service organizations. This group meets monthly and has 
formulated a program with services and support for our 
returning servicemembers.
    In addition, we have conducted seven town hall meetings 
with family members to learn about their concerns and their 
problems. The second round of meetings is being expanded to 
include 11 cities, and we have conducted the first of these at 
Gowen Field on July 23rd. It was well attended and included 
briefings by members of the Idaho Inter-Service Family 
Assistance Committee.
    In addition to these town hall meetings, we are placing 
information and Web site links on our family support Web site. 
We are also producing a resource guide for support services and 
working with Idaho's 211 Information and Referral Hotline as we 
prepare families for the return of their loved ones.
    During the demobilization process, a team of National Guard 
soldiers will be at Fort Lewis to review records to make sure 
that they are properly completed and that our soldiers are 
afforded every service and benefit that they're eligible for. 
Where it makes sense, the team will also include 
representatives from the agencies and organizations that belong 
to our Inter-Service Family Assistance Committee.
    After our soldiers return home, our efforts will be to 
focus on helping them reintegrate. We will continue to conduct 
town hall meetings, focusing on follow-up and service access. I 
plan to continue this program for at least 18 months after 
their return. Marriage enrichment programs organized by the 
State Chaplain will also be provided for all married soldiers 
and their spouses who wish to attend.
    Mr. Chairman, again, I thank you for this time to speak 
before this Committee. I am grateful for your sincere concern 
and the concern of our Governor for the citizen soldiers who 
will soon be returning home to Idaho. Thank you, sir.
    [The prepared statement of General Lafrenz follows:]
       Prepared Statement of Major General Lawrence F. Lafrenz, 
                 Adjutant General, Idaho National Guard
    Mr. Chairman, I appreciate the opportunity to testify before this 
Committee to share what we in the Idaho Guard are doing to prepare for 
the return of our mobilized soldiers. Allow me to note that while the 
116th BCT is comprised primarily of Idahoans, there are another 
2,000Guard Members serving with the BCT from other States such as 
Oregon, Montana, Utah, Pennsylvania, and New Jersey to name a few.
    In addition to deploying the 116th BCT, Idaho continues to support 
OIF and OEF missions with the 189th Airlift Squadron and the 124th 
Aerial Port Flight. We recently alerted and will mobilize another 200 
plus soldiers in the 1-183rd Attack Aviation Battalion in October.
     I'll begin by saying that in all entitlement areas--medical care, 
benefits and services--we must put great effort into the dissemination 
of information. It does little good to be poised to provide a benefit 
when the veteran is unaware it exists.
    Healthcare issues are at the top of my list of concerns. In order 
to access some healthcare services, soldiers must disclose all 
illnesses and injuries on their Post-Deployment Health Assessment 
forms. These citizen-soldiers will have been away from home for nearly 
18 months. They are anxious to return and may be tempted to remain 
quiet about an ailment or injury for fear it will delay their return. 
This situation is being addressed by Commanders on the ground in Iraq. 
Likewise, we are informing family members that soldiers who do not 
declare their medical issues risk not being able to receive care or 
benefits for those conditions. This concern will also be addressed 
during the demobilization process at Fort Lewis.
    Another healthcare concern is the availability of services for 
Guard members who reside outside the major population centers in the 
State. The Veteran's Hospital system is an excellent resource for us, 
especially here in southwest Idaho. I am grateful for the additional 
funding provided by Congress to improve facilities this year and to add 
staff in the next fiscal year. I am sure our returning soldiers will 
benefit from this. Soldiers residing away from the Boise Valley are not 
so fortunate. The State is serviced by three other VA Hospital regions 
which include Salt Lake City in the East and Walla Walla and Spokane in 
the North. It would be very helpful if we could utilize local 
healthcare providers in our outlying areas. We are working with the VA 
to resolve this concern.
    Last, with respect to health care, I would like to address dental 
support. Many soldiers will reach the demobilization center needing 
treatment they are entitled to but have been unable to get while in 
Iraq. We can do this with systems already in place through the VA 
Medical Centers and we are working to get the information to the 
soldiers and coordinate with the medical centers.
    So far I have highlighted my concerns about Idaho's returning Guard 
members and their families. Idaho's employers have been greatly 
impacted by this mobilization and, for the most part, they have reacted 
with overwhelming support. I would like to offer employers a training 
package that helps them prepare for the return of a soldier who has 
just spent the past year in a war zone. A training package such as this 
is not available and so we are working with ESGR and other 
organizations to put one together that can be exported around the 
State.
    I have outlined my concerns for the returning 116th BCT soldiers 
and would now like to address what we are doing in Idaho to assist our 
returning soldiers:
    We have opened Family Assistance Centers with funding from the 
National Guard Bureau in seven armories around the State. These centers 
are run by family members and retired Guardsmen. They maintain contact 
with community resources and keep up-to-date information on all the 
programs we know about that can help our soldiers and families. I 
expect these centers to become the local service centers for our 
veterans and their families who do not have a nearby VA office.
    At the beginning of the year, we began conducting meetings among 
soldier and veterans' advocates. The Idaho Inter-Service Family 
Assistance Committee is led by a senior Idaho Guard staff member and is 
comprised of members from the Department of Veterans Affairs, the VA 
Medical Center, the State Division of Veterans Services, the Vet 
Center, the U.S. Department of Labor, the State Department of Commerce 
and Labor and the Department of Health and Welfare, as well as other 
service organizations. This group meets monthly and shares ideas and 
information regarding benefits and programs.
    This spring I went around the State with my staff, conducting seven 
town hall meetings to visit family members and to learn about their 
concerns and problems. The second round of meetings is being expanded 
to include 11 cities. We conducted the first of these at Gowen Field 
July 23rd. It was well attended and included briefings by those same 
State and Federal veterans' advocates and service providers who are 
members of the Idaho Inter-Service Family Assistance Committee. In 
addition to these town hall meetings, we are placing information and 
Web site links on our family support Web site. We are also producing a 
resource guide and working with 2-1-1 Idaho Care Line; Idaho's 
Information and Referral hotline. I want to prepare families as much as 
is possible so that when a question arises, they are not at a loss for 
what to do or who to call for support.
    When our Guardsmen mobilized, most lost civilian medical insurance 
benefits. During deployment, the soldiers and their families have been 
covered by TRICARE. Our ongoing issue in Idaho is finding available 
TRICARE providers. While great improvements were made to enroll 
providers at the beginning of our deployment, there are still areas in 
the State that are not well covered. We are now hearing from our 
families that physicians will continue to care for existing TRICARE 
patients, but will take no more. This is a significant problem for us 
in light of our future mobilizations.
    Here in Idaho, we coordinated with the TRICARE Education 
Representative and had a 3-day course to train our own people to assist 
our families with their enrollment and service questions. We would very 
much like to see TRICARE invest in a service center here in Boise to 
support not only the returning soldiers, but those now beginning their 
deployment cycle. We are now in the process of filing our request to 
host such a service center.
    During the demobilization process itself, we will focus resources 
at the demobilization center. A team of soldiers representing 
administrative and medical experts will be there to review records to 
make sure they are properly completed and that soldiers are taking 
advantage of every service and benefit offered. Where it makes sense, 
the Idaho team will also include representatives from the agencies and 
organization that belong to our Inter-Service Family Assistance 
Committee, or their counterparts located near the demobilization 
center. Before soldiers leave the demobilization center, they will be 
given a list of people and resources they can call for help once they 
are back home.
    After the soldiers return home, our efforts will focus on helping 
them reintegrate. We will continue to conduct town hall meetings 
focusing on follow up and service access. I plan to continue this 
program for at least 18 months after their return. Marriage enrichment 
weekends funded by the National Guard Bureau Family Program and 
organized by the State Chaplain will also be provided to all married 
soldiers.
    Mr. Chairman, again I thank you for this time to speak before the 
Committee. I am grateful for your sincere concern for the citizen-
soldiers who will soon be returning home to Idaho and to our 
neighboring States.

    Chairman Craig. General, thank you. That's an impressive 
array of efforts you have underway. We'll get back to you with 
questions in just a moment.
    Now let me turn to David McIntyre, President and CEO of 
TriWest. David, we're extremely pleased to have you here in 
Boise. I say to all of you, we've worked very closely with 
TriWest over the last good number of years to clearly improve 
coverage here in the State in a very substantial way. Yet, 
you've just heard from General Lafrenz saying we've still got 
problems. So I guess as you start your testimony, you've 
already been asked a question.

STATEMENT OF DAVID J. McINTYRE, JR., PRESIDENT AND CEO, TRIWEST 
                      HEALTHCARE ALLIANCE

    Mr. McIntyre. Yes, sir. Chairman Craig, thanks for holding 
this hearing. Governor Kempthorne, it's great to see you again. 
It's an honor to be with you today to discuss the preparations 
for return of the 116th. As was stated earlier, I am the 
President and CEO of TriWest Healthcare Alliance. My board, 
which includes Regence BlueShield of Idaho, are particularly 
honored to have the mission of serving this population.
    With your permission, I'd like to ask that my formal 
remarks be entered into the record, and I prepared some oral 
remarks which in part will deal with the question that I was 
just asked.
    Chairman Craig. All right. Without objection, your full 
statement will be part of the record.
    Mr. McIntyre. Thank you. Last May I had the opportunity to 
join the Governor and senior officials from DoD for a town hall 
as the 116th was preparing to leave the following day, as I 
recall. Governor, I want to thank you for your focus and for 
making sure that all of us were focused. I hope that you'll 
agree that we made good on our commitments. Certainly the 
businesses of the State have and others across the State as 
they've stepped up to the plate to make sure that the 
sacrifices and the service of the family members and troops 
were followed up on.
    Several months ago I, too, had the opportunity to visit the 
desert, not in Arizona, but in the Middle East, to walk among 
the heroes of the 116th and other armed forces from across our 
country. I wanted to take the opportunity to both thank them 
for their service, but I also wanted to find out how things 
were going back home because I remember a day when I was told 
by a certain member of the U.S. Senate that what happens at 
home is what matters when we're in a time of conflict. And we 
have the responsibility to stand up and do our part to make 
sure that we lessen their burdens.
    It became abundantly clear from the encounters that I had 
with the troops from Idaho that there was a deep sense of 
gratitude for all that you've done, Mr. Chairman, and that the 
Governor's done to make sure that we were following through on 
what needed to be done at home. I also walked away with a deep 
sense of honor that I encountered for being able to serve all 
of those who serve all of us. Seeing their toil, their 
commitment, and their sincere appreciation has only 
strengthened our resolve to make sure that we do what we need 
to do for the families and servicemembers from this State.
    In addition, they expressed their gratitude to the 
commander of the 366th Medical Group of Mountain Home, her 
staff, and doctors in hospitals from all across the State who 
stepped up to help out their loved ones in their absence. It's 
remarkable that in May there were 400 providers in the State of 
Idaho that were willing to participate in TriCare. Today 
there's 1600. That is a remarkable change. Now, that's not 
sufficient to meet the need in every corner of the State. And 
there is no question about that.
    The focus of this hearing makes a lot of sense, to look at 
the next chapter, which is what are we going to do when they 
return? I'm pleased with the fact that the providers have been 
willing to step up in this State. We have additional work to 
do, particularly in the rural areas. As those Guard and Reserve 
members come back, we may not otherwise be accessing the VA for 
war-related injuries, but choose to access their TriCare 
benefit, which if the Department of Defense implements it as 
expected, the vote that you gave, Mr. Chairman, in the Senate 
will give those individuals that spent 90 days in combat 
theater 1 year of eligibility for every 90 days. That extends 
to a fair amount of TriCare benefit as we go forward.
    We've been responsible for doing education briefings across 
the State. Like the VA, we've been engaged in that process 
along with the Guard and Reserve. We conducted nearly 60 
briefings across the State for those that have been eligible 
for the TriCare benefit while their family members have been 
gone and serving in harm's way.
    In recognition of the behavioral healthcare support due to 
the impact of the current conflict, we both developed a 
targeted provider network and a targeted education outreach 
campaign. This outreach campaign is Web based, but it's also 
local in that it involves a variety of materials that are 
available through our particular facility and the integration 
of resources that are available to the beneficiaries for which 
we're responsible.
    I've talked about the network expansion, but we still have 
work to do, particularly in the remote and rural areas. The 
challenge we face is that in many of the areas in the State, 
specialists do not exist. And so the question that we faced 
along with the VA is what do we do in response to that? I would 
submit that the key core challenge for us is to make sure that 
we have identified geographically where the closest areas of 
care can be based on specialists and that we handle the needs 
of those individuals in a way that reflects that reality.
    Chairman Craig, I'd like to thank you personally for your 
outreach to the Boise Saint Alphonsus Regional Medical Center. 
Their addition to our network has been greatly helpful to the 
patients that they see.
    I also want to express along with Regence of Idaho's 
gratitude, the thanks to the providers in the State that have 
stepped up and our commitment to continue to do everything that 
we can to make sure that the program is as hassle free as it 
can be and that we're paying providers on time and accurately 
for the services that they deliver.
    We're working at the moment with General Lafrenz, as he 
said, to try and identify what we can do to make sure that the 
outreach for those that will be returning is effective. We're 
looking at the question of whether we should be placing an 
individual at Gowen Field to actually be able to deliver 
services for those individuals and help them migrate the system 
as they return with many questions undoubtedly on their minds.
    As a close to my testimony, I would like to commend Dr. 
Perlin for his leadership. His intuitive direction for the VA 
and his dedication to developing a veteran-centric healthcare 
system for returning veterans and servicemembers is something 
that I admire greatly. It is not easy to serve in Washington, 
and I think that we have a great individual guiding this noble 
journey at the VA.
    Having said all of that, there are going to be some 
significant challenges. And while I believe much of the unique 
and dedicated efforts of the VA are irreplaceable, I also 
believe, as the President of the United States has articulated, 
that there's much to be gained through the collaboration of the 
Department of Defense, the VA, and the private sector. Mr. 
Chairman, I know from our conversations that this is a vision 
that you share personally.
    I am pleased to say that in Boise and in the rest of Idaho, 
we have begun work over the last couple of years with Dr. 
Perlin's leadership team here in the State to figure out ways 
to collaborate to the benefit of the taxpayer and both of the 
populations. I believe we still have a ways to go, and I think 
that there are other possibilities in the future, and those are 
contained in my written testimony.
    It's been an honor to be with you today. It's an honor to 
serve this great population. And I'm deeply humbled by their 
service and their sacrifice and those of their families. And it 
was a great treat to have an opportunity to walk among those 
heroes in late April of this year.
    I'll be glad to answer any questions that you might have, 
Mr. Chairman.
    [The prepared statement of Mr. McIntyre follows:]
   Prepared Statement of David J. McIntyre, Jr., President and CEO, 
                      TRIWEST Healthcare Alliance
                         introductory comments
    Senator Craig, Governor Kempthorne and distinguished leaders of the 
State of Idaho's Veterans Affairs and National Guard and Reserve 
community, I would like to thank you for inviting me to appear before 
you today to discuss the health care issues impacting our Nation's 
active and retired servicemembers and their families. It is a pleasure 
for me to join Dr. Perlin, General Lafrenz and Mayor Reese, and to have 
the opportunity to share with you the efforts TriWest Healthcare 
Alliance is making and will continue to make to address the unique 
needs of this brave group of individuals.
    My name is David McIntyre. I am the president and CEO of TriWest 
Healthcare Alliance, the Department of Defense's contractor privileged 
to support the military in the delivery of health care services to 
those who currently serve in our Nation's armed forces, those who 
preceded them, and their families, in the 21-State State TRICARE West 
Region--which includes those who reside in the State of Idaho. Since 
1996, when TriWest, which is owned, in part, by Regence BlueShield of 
Idaho, was awarded its first TRICARE contract, our organization's 
singular focus has been on developing and maintaining responsive 
programs and services that meet the needs of our deserving customers. 
As the demand on our Nation's military has expanded, given the Global 
War on Terror, and we've seen many of our Guard and Reserve component 
members mobilized to active duty, TriWest's focus has further developed 
to encompass the distinct and sometimes unique needs of these civilian 
servicemembers and their dedicated families.
    I am proud to appear before you today to discuss TriWest's work on 
behalf of our active duty, Guard and Reserve, and veteran customers 
right here in the State of Idaho, and to share with you how our 
organization is prepared to continue to partner with the VA and 
National Guard and Reserves to make good on the promise of TRICARE both 
here and throughout these United States.
           initial challenges lead to collaborative solutions
    During our nearly decade-long tenure as the Department of Defense's 
partner in delivering access to health care services in the West, 
TriWest has developed many key process and program improvements that 
have benefited the entire TRICARE community. Our efforts in such areas 
as case management, disease management, cross-contractor continuity of 
care and behavioral health care have been well received by the Military 
Health System and, in a number of cases, have been implemented program-
wide.
    While we experienced some initial challenges establishing a 
sufficient network of quality providers during our early days in Idaho, 
we overcame these obstacles by reaching out to many of you so that, 
together, we could improve the quality and convenience of care for our 
Idaho beneficiaries. Indeed, the successes we have since experienced in 
Idaho, which I will discuss in more detail later in my testimony, are 
due in no small part to the support of Governor Kempthorne and the 
Congressional delegation under Senator Craig's leadership. As the 
Senator and others are aware, Idaho leaders, in collaboration with our 
organization and the Departments of Defense and Veterans Affairs, have 
played a key role in improving the delivery of TRICARE services in this 
State--to the benefit, particularly, of the men and women of the United 
States' Guard and Reserve component, many of whom have been deployed 
from Idaho to fight the Global War on Terror.
    On behalf of our entire organization, I extend our sincere 
gratitude for your support during those early days, and am pleased now 
to share with you how TriWest's efforts have continued to develop and 
are making the TRICARE program function effectively and efficiently for 
the men, women and children of Idaho's military families. Later in this 
testimony, I also look forward to discussing how I believe we can 
leverage our core competencies to work hand-in-hand with the local and 
national Veterans Affairs departments to further improve delivery of 
health care to the heroes who serve today, those who served in the 
past, and their deserving family members.
             Honing Our Efforts To Improve Delivery of Care
                            provider network
    In each service area of our 21-State West Region, TriWest is 
committed to establishing a comprehensive network of primary and 
specialty health care providers from whom our beneficiaries can receive 
cost-effective, convenient care. It is our mission to contract 
providers in both rural and urban areas to minimize unnecessary travel 
by our valued customers, and to ensure that immediate health care is 
available to these families when they need it. In States like Idaho, 
that means taking measures to expand our network's availability outside 
the government-mandated 40-mile radius (i.e., catchment area) of our 
region's military treatment facilities--an effort to which we are 
thoroughly dedicated.
    Thanks to the hard work of our Provider Network Development team, 
our shareholder and network subcontractor partner Regence BlueShield of 
Idaho, and many of you, our local network has blossomed more than 10 
fold since our initial arrival in the State, with approximately 1,600 
providers now contracted to serve the health care needs of local 
military families. Senator Craig, I want to extend a personal thanks on 
behalf of our customers and your constituents for your assistance in 
helping us contract Boise's Saint Alphonsus Regional Medical Center. 
This facility and its providers join us in being committed to 
delivering high-quality health care to the local community, and we are 
pleased that, as a result of your outreach, they are a part of our 
network.
    In other network development efforts, we appealed to the Department 
of Defense for a CMAC waiver that would allow us to reimburse specialty 
providers in the Mountain Home catchment area 115 percent of CMAC. In 
January 2003, we received approval for this waiver for such specialties 
as Allergy, Dermatology, Gastroenterology, Neurology, Neurosurgery, 
Orthopedic Surgery, Otolaryngology, Rheumatology, and Thoracic 
Surgery--which proved instrumental in our ability to further grow our 
Idaho provider network. Senator Craig's strong support for this waiver 
was critical to its adoption.
    Our Network Development team continues to make important strides by 
working closely with many key facilities to address any concerns they 
might have in order to avoid their loss in the network. Among other 
efforts, we have assigned some facilities individual points of contact 
at our Phoenix hub office (whom they can contact directly with 
questions or requests for assistance); communicated directly with 
providers regarding reimbursement rates, military treatment facility 
(MTF) referrals, and primary care manager reassignments; and we've held 
monthly feedback sessions with Idaho MTFs to ensure we are aware of the 
unique issues they face on their end. In addition, those physicians 
whose practice patterns demonstrate high quality and the appropriate 
use of medical resources have been designated as members of our Gold 
Card Program, which expedites care and eliminates and/or expedites much 
of the paperwork hassle typically associated with treating a TRICARE 
beneficiary.
    Our progress with network development has eased the health care 
delivery burden for those TRICARE beneficiaries residing in Idaho--and 
improved our relationship with the beneficiaries and providers hailing 
from this State--and we will not cease our focus on continually 
expanding our provider base.
                          rural access to care
    Throughout our West Region territory, including here in Idaho, we 
serve many families who reside far from the managed-care environments 
of urban centers, or outside the 40-mile catchment area surrounding the 
state's military treatment facilities (MTF). While these remote areas 
present a unique health care delivery challenge--including a lack of 
providers of all types, as well as those who do not participate in 
certain insurance plans or government health care programs, a lack of 
coordination within the health care system and a lack of access to 
emergency care--TriWest's operational structure has been refined over 
our years of existence to allow us to provide the best possible service 
to our customers who reside in rural communities.
    Specifically, we have established teams of customer service, 
support and education professionals based near rural areas to provide 
the military families living in these locations with resources closer 
to home. These services can also be available to returning veterans 
that are the responsibility of the VA. Our TRICARE Service Centers at 
Mountain Home Air Force Base and Fairchild Air Force Base offer some of 
our rural customers a more convenient place to go for face-to-face 
assistance with program and health care related inquiries. 
Additionally, we have a service area director responsible for ensuring 
that operations in Idaho run smoothly across the state, and a 
beneficiary education representative whose responsibility it is to 
educate military families on their TRICARE entitlement through local 
briefings.
    Coupled with our efforts to contract providers throughout the 
State, these teams of support staff provide remote-based families with 
specialized and dedicated care. Furthermore, we have worked in concert 
with the Department of Defense to bring their experts to Idaho to help 
train the State's family support units, whose primary focus it is to 
assist the local National Guard and Reserve members and their families 
in making use of their new TRICARE benefits. Because Guard and Reserve 
families are often based in small communities--rather than near MTFs 
like our ``traditional'' customers, who reside near bases due to 
assignment or, if retired, for proximity to base benefits--this 
specialized local assistance is invaluable. This is especially true in 
terms of behavioral health support, given that 60 percent of rural 
areas are designated behavioral health profession shortage areas, and 
suicide rates (particularly in the rural west) are as much as 3 times 
as high as they are in urban areas. Addressing these concerns with 
support services and care as close to these rural areas as we can is 
our best defense.
    It is our desire to provide our rural customers with access to a 
comparable quality and quantity of health care services afforded our 
urban-based beneficiaries, where care is available, and we will 
continue to focus on improving our processes and programs in Idaho and 
in other remote areas in the West Region to that end. We recognize that 
Governor Kempthorne faces these same challenges in serving rural 
veterans, and we are equally committed to being available as a resource 
for the State of Idaho whenever and however we can help.
         behavioral health care/post-traumatic stress disorder
    In this time of global conflict, as our Nation's servicemembers 
deploy to areas of unknown danger leaving their loved ones miles away, 
and a number of us, including myself, have been to some of those areas, 
we recognize the clear need for emotional support both from a service 
and health care perspective. For this reason, meeting the behavioral 
health care needs of our region's beneficiaries is among TriWest's 
primary objectives. Because this specialized care is vital to the 
quality of life of our uniformed customers and their families, we have 
made some important strides to improve access to behavioral health 
services for the men, women and children of the West Region.
    Most specifically, with the advent of our current TRICARE contract, 
we ceased outsourcing behavioral health services and support and 
brought them under our corporate umbrella out of a belief that the full 
spectrum of health care needs of our customers need to be served on a 
consolidated basis. In doing this, we also retain control over the 
quality of behavioral health services available to our regional 
beneficiaries--and have the ability to identify trends in this 
specialty area so that we might address the unique emotional needs of 
our military families with the same diligence with which we respond to 
their physical needs.
    In addition, we are undertaking two post-deployment behavioral 
health initiatives that will have direct implications for providers in 
Idaho. First, we are developing a behavioral-health subsection on our 
Web site at www.triwest.com that will include information on post-
deployment issues that servicemembers and their families may encounter, 
including post-traumatic stress disorder (PTSD). In this subsection, we 
plan to offer information and tools that behavioral health and primary 
care providers can easily access and utilize with TRICARE 
beneficiaries, such as fact sheets, brochures, evaluation outlines and 
practice guidelines. Second, we are coordinating an effort to support 
primary care providers treating beneficiaries with behavioral health 
issues by linking them with a behavioral health case manager who can 
provide the information they need or connect them with a psychiatrist 
or child psychiatrist for telephone consultation.
    To respond specifically to the behavioral health care needs of our 
returning Guard and Reserve members, TriWest has collaborated with 
these units to serve as a liaison for beneficiary education about 
eligibility and benefits for their personnel. Further, we are 
establishing points of contact with the VA and National Guard in order 
to coordinate access and the delivery of behavioral health services. 
Along these same lines, we are developing a pilot program with the 
National Guard in northern California that, if expanded, would be made 
available in Idaho as well. The project involves placing trained 
behavioral health providers with units that have recently deployed or 
returned from Iraq and Afghanistan to work with them in a 
psychoeducational model on deployment-related behavioral health issues. 
In addition to training presentations, these providers would be 
available for individual consultation and referral to those members 
needing additional services.
    In Oregon and Washington, TriWest has also been involved in 
coordinating with the National Guard Bureau (which includes the Army 
National Guard and the Air National Guard) and the Department of 
Veterans Affairs (which includes the Veterans Benefits Administration 
and the Veterans Health Administration) regarding assistance for 
services and benefits to the National Guard personnel returning from 
theaters of combat operations and separating from active duty.In doing 
this, we have played a key role in providing for the continuity of 
health care benefits for these personnel through the Transitional 
Assistance to Military Personnel and TRICARE Reserve Select programs.
    We recognize that meeting the post-deployment needs of active duty 
servicemembers and their families is a task that exceeds the 
responsibility and resources of any one government agency or 
contractor. It is for this reason that we are committed to integrating 
the resources of existing government programs and educating 
beneficiaries about the various options available to them. We believe 
this strategy will also maximize the resources available and ensure 
that the needs of servicemembers and their families are appropriately 
met.
    To that end, we are focused on educating about and making available 
services directed at their psychosocial needs (e.g., Military 
OneSource, Family Readiness Groups, chaplains, childcare resources, 
financial counseling, employment), as well as behavioral health 
services available through the direct care system of the military 
treatment facilities; the VA hospitals and veteran centers; State 
vocational rehabilitation agencies; State employment agencies; 
TriWest's network; and the community. The last of these--community 
resources--is an essential element for servicemembers separating from 
duty and returning to civilian life, particularly those who choose not 
to enroll in TRICARE Reserve Select, the new program option for 
eligible Guard and Reserve members and their families. Community 
resources are also important alternatives for TriWest when working with 
servicemembers' families or other companions who are not themselves 
eligible for TRICARE (e.g., caregivers of injured servicemembers). Our 
goal is to connect these individuals with State agencies whose services 
may assist them with transitioning to civilian life (such as resources 
related to employment, housing and job training). Our current 
initiatives in Washington State and Oregon are doing just that, and we 
believe the same successes can be had in Idaho as well.
    In other collaborative efforts, in various areas throughout our 21-
State region, we have worked hand-in-hand with the Department of 
Defense, the Department of Veterans Affairs and the National Guard and 
Reserves to establish responsive programs and services for 
beneficiaries suffering from PTSD. Our joint efforts have been widely 
praised throughout the TRICARE community, for they are proof positive 
that we are dedicated to providing our returning military heroes with a 
service and support network that is committed to easing their 
rehabilitation and re-acclimation as much as possible.
    In the area of PTSD, we recognize that continued collaborative work 
with local and National entities is of utmost importance--and we are 
anxious to embark on cooperative PTSD efforts in Idaho. By joining 
forces with your teams, Dr. Perlin and General Lafrenz, including Dr. 
Dewey, Chief of Behavioral Health at the Boise VAMC (a nationally 
published author on PTSD), I believe we can make a difference in the 
lives of returning servicemembers and provide them with the comfort, 
confidentiality and customized care they have undoubtedly earned.
                    provider outreach and education
    When it comes to providing our military customers with access to 
best-value health care in the West Region, contracting high-quality, 
dedicated providers is just the first step. We recognize that 
communicating with and educating our network of providers about the 
intricacies of TRICARE is the best way to ensure that they understand 
the unique needs of their military patients, the coverage available 
under the program, and the most efficient way to handle all associated 
administrative functions.
    Our Provider Relations and Education team, in cooperation with our 
network subcontractors (Regence BlueShield of Idaho in this service 
area), is dedicated to providing our health care partners with the 
instruction they and their staffs need to help the TRICARE program 
function most efficiently for our beneficiaries. To do this, the team 
hosts bi-annual briefings throughout our 21-State region that are 
designed to inform providers about the latest program changes, claims 
processing updates, coverage guidelines and other details. Annually, we 
host just shy of 500 briefings across the region--21 of which take 
place in Idaho. These briefings, which are also available in an online 
format accessible through our Web site at www.triwest.com, reach 
approximately 11,500 providers each year (nearly 500 of whom reside in 
Idaho). In addition to our briefing efforts in Idaho, our team also 
hosts information booths at Idaho Health Care Conference meetings 
throughout the year, giving us an opportunity to interact one-on-one 
with our Idaho provider partners.
    In addition, our Provider Relations and Education team works in 
conjunction with local media outlets--such as the Idaho Medical 
Association (IMA) newsletter--to distribute TriWest and TRICARE-
specific information directly to providers in our local communities. 
For example, the IMA newsletter recently featured articles discussing 
the new TRICARE Reserve Select benefit for Guard and Reserve members 
and their families, and educating providers on TriWest's bonus-payment 
program. By partnering with these local publications, hosting briefings 
and making regular visits to many of our key facilities, TriWest is 
succeeding in keeping our network informed about the TRICARE program 
and their unique role in serving America's military families.
                   beneficiary outreach and education
    At TriWest, our motto is to do ``Whatever It Takes'' to make good 
on the promise of TRICARE--and this mindset is never more prominent 
than it is in our dealings with the military families we are so 
privileged to serve. We are committed to providing our beneficiary 
customers with the tools, services and support they need to make their 
TRICARE entitlement work most effectively for them, and for that reason 
we place great emphasis on communicating with and educating these men 
and women and their families through as many avenues as are available 
to us.
    Most notably, our locally based staff dedicates their time (both 
personal and professional) to attending beneficiary advisory board 
meetings and local health-related conferences, and to hosting TRICARE 
educational briefings throughout our 21 States. Since the beginning of 
health care delivery under our West Region contract in June 2004, our 
beneficiary education representatives, customer services 
representatives, service area directors, and clinical liaison nurses 
have engaged more than 230,000 beneficiaries at upwards of 4,600 
briefings across our region. To date this year, our Idaho-based 
education staff has conducted nearly 60 briefings throughout the State, 
reaching more than 1,600 local beneficiaries with vital program-related 
details. Recently, TriWest's local beneficiary education 
representative, Ms. Karen Robertson-Gordon, has been participating with 
the National Guard and local agencies in a local planning group that 
has been organizing educational efforts that will be available to 
Idaho's returning National Guard and Reservists. Through these 
briefings, we hope to keep our customers updated on utilization 
information, health and wellness issues, and new services or programs 
for which they might be eligible.
    For instance, when the TRICARE Reserve Select program launched 
earlier this year, we deployed a comprehensive communication and 
education campaign designed to reach beneficiaries in their local 
communities. This campaign included hosting local-area briefings, 
seminars and special events targeting Guard and Reserve members; 
publishing program-related articles in base newspapers throughout the 
region; producing Frequently Asked Questions pamphlets for distribution 
to beneficiaries; and establishing a TRICARE Reserve Select section on 
our Web site at www.triwest.com, where online seminars and other 
program-related materials would be readily available for this branch of 
our customer base.
    In addition to these efforts, our local Idaho beneficiary education 
representative and service area director conducted more than 20 
briefings and meetings to support deploying units, create constructive 
interaction with them, and ensure an effective education program is in 
place in the state. The feedback and response our team has received 
from the Idaho Guard and Reserve has been positive, and it is 
abundantly clear that these brave servicemembers and their families are 
greatly appreciative of TriWest's efforts to support their rapid 
activation and mobilization schedules. To help maintain ongoing 
interaction with our Guard and Reserve beneficiaries--and to ensure 
that senior military leaders have direct communication with TriWest--
our Idaho service area director has been appointed as the single point 
of contact for all Guard and Reserve issues in Idaho.
    Along with communicating and educating our beneficiaries about the 
new benefits available to Guard and Reserve members and their families, 
our Marketing and Education team--along with beneficiary education 
representatives based throughout our region--also recently deployed an 
educational behavioral health campaign. As discussed earlier, we 
recognize the immediate need for behavioral health care initiatives in 
our region (and, for that matter, nationwide), and this campaign helped 
us to communicate these measures with the individuals who can most 
readily benefit from these focused programs.
    The campaign included developing a comprehensive library of 
behavioral health information; creating sections of our Web site at 
www.triwest.com where this information could be housed for easy, 
confidential access; providing links to the behavioral health-related 
resources available through such partner organizations as the Boise 
VAMC; distributing related articles to local and base papers; utilizing 
explanations of benefits reports to identify beneficiaries who might 
benefit from focused behavioral-health education; and developing wallet 
cards containing contact information for further behavioral-health 
support. A portion of this campaign also focused specifically on our 
Guard and Reserve beneficiaries and the unique behavioral health issues 
these civilian servicemembers and their families now face.
    By educating our beneficiaries about the TRICARE program, the 
supplementary services available through TriWest and the initiatives 
our organization has designed to help them best utilize their health 
care entitlement, we are well on our way to making good on the promise 
of TRICARE for these most-deserving military families.
     working in tandem, we can meet their varied health care needs
    At TriWest, we recognize that strength comes from collaboration. We 
understand that by joining forces with organizations, agencies and 
other members of the Military Health System community, we can better 
serve the men and women of our Nation's armed forces and their 
families. Thus far, I have shared with you many of the measures TriWest 
has taken across our region, and specifically in Idaho, to meet the 
unique needs of our military family customers. Now, I would like to 
discuss the opportunities, I believe, are available for our 
organization to join forces with many of you--particularly with Dr. 
Perlin and his VA team--to further serve this most gracious population.
    First, I would like to commend Dr. Perlin for his leadership, his 
intuitive direction for the VA and his dedication to developing a 
``veteran-centric'' health care system for returning servicemembers. 
His efforts on behalf of these men and women (and the families to whom 
they are so gratefully returning) have been extraordinary--particularly 
in light of all that is going on--and our organization certainly 
understands the challenges he and his team have faced in responding to 
their needs.
    While the unique and directed efforts of the Veterans 
Administration are irreplaceable--with its vast system of hospitals, 
teaching programs, veteran-focused clinical research capabilities, and 
expertise in prosthetics, brain and spinal cord injuries, amputee 
rehabilitation and care for combat-related behavioral health 
disorders--I believe that by working at your right hand, and by 
supplementing the VA's service and support, we at TriWest can be of 
great assistance to you as the VA continues to work on behalf of these 
honorable veterans. Specifically, there may be areas where our 
established operations can minimize costs for the VA while maximizing 
benefit to the veteran--particularly in regard to patient appointing, 
advice lines, referral and case management, and, most importantly, 
utilization of our extensive network of primary and specialty 
providers.
            current initiatives lead to future opportunities
    TriWest's involvement in VA-DoD sharing in Idaho is longstanding. 
In 2001, we established a VA-DoD planning group between the Boise VAMC 
and the 366th Medical Group at Mountain Home AFB that proved to be one 
of the initial successes of our innovative Central Region Federal 
Health Care Alliance (CRFHCA) initiative. The success of this planning 
group led to the development of the Joint Strategic and Operational 
Planning Process (JSOPP), which formalized joint VA-DoD health care 
market planning and was included as a value-added component of our 2003 
TRICARE Next Generation bid proposal.
    Our JSOPP initiative further strengthened these established 
relationships by formalizing the Boise/Mountain Home Market Area 
Executive Management Team (EMT), which has not only been responsible 
for a variety of health care improvements for both VA and TRICARE 
beneficiaries, but also has served as an example of how joint VA-DoD 
planning can be applied in a number of locales across our region. The 
VAMC/AFB relationship is tremendously strong and boasts a successful 
history, and Mr. Wayne Tippets, Director of the Boise VAMC, and Col. 
Helen Horn-Kingery, Commander of the 366th Medical Group at Mountain 
Home AFB, are actively involved in enhancing that relationship for an 
even brighter future. Specifically, the Boise VAMC has provided 
pathology supervision for the Mountain Home laboratory via a VA-DoD 
Sharing Agreement for several years, thus enabling it to maintain 
College of American Pathology certification. Additionally, these 
partner facilities established an agreement for the conduct of 
separation/compensation and pension physicals at least 2 years prior to 
it becoming a requirement earlier this spring. Education opportunities 
have been and continue to be shared on a regular basis as well, with 
behavioral health services acting as a lynchpin of the current 
relationship between the two facilities. The two facilities actively 
share behavioral health educational opportunities, and the MTF draws on 
the Boise VAMC's considerable expertise in Post-Traumatic Stress 
Disorder when it comes to referring active duty servicemembers in need 
of such care.
    In addition to these current successes, the Boise/Mountain Home 
EMT--led by Mr. Tippets and his Boise VAMC staff of Mr. James Sola, Dr. 
David Lee and Mr. Grant Ragsdale, along with Colonel Horn-Kingery and 
her administrator, Lieutenant Colonel Patrick Dawson--meets quarterly 
to consider ongoing ways to partner for more efficient use of Federal 
health care resources in the Treasure Valley. Recently the two 
organizations partnered in the preparation of a Joint Incentive Fund 
(JIF) project for fiscal year 2005, having submitted a proposal for the 
procurement of a mobile MRI van that would serve both facilities. This 
project is currently being evaluated and a decision on award of the 
funds is due in September. Additional projects being considered for 
sharing include opportunities for the VA to provide radiology support 
to the MTF when its radiologist is away; the MTF staff to provide 
interpretation of cardiac echo cardiograms for the VA; the VAMC to 
support non-invasive cardiology services at the MTF; contingency 
agreements to allow for the use of one another's beds when overflows or 
emergencies dictate; and the enhanced behavioral health support and 
possible increases in the VAMC's operating-room time through the use of 
MTF personnel who must maintain their skills by doing more complex 
cases than can be supported at the MTF.
    Thanks to the success of these local collaborative efforts, we 
believe there may be additional areas where TriWest can partner with 
the local VA agencies to maximize the availability of resources and 
services for our Idaho TRICARE and veteran beneficiaries. Opportunities 
for consideration include the following:
                        robust provider network
    As discussed, TriWest is responsible for establishing, maintaining, 
and growing a network of primary and specialty providers in our West 
Region territory--just as our colleague TRICARE contractors are 
responsible for doing the same in their regions. I believe it would 
make good business sense for the Federal Government to have the VA take 
advantage of our network of providers, particularly in places such as 
Idaho where large geographic distances and relatively few VA facilities 
can hinder access to care for those in need and eligible for services.
    In short, by partnering with TriWest (and, in the same manner, with 
the other TRICARE contractors), the VA could leverage our network 
providers to address access challenges for those individuals who are 
not near VAMCs or CBOCs, or when specific VA care is not locally 
available; to refer patients to specialty care at VA facilities or 
within the TRICARE network if travel would impose an unnecessary and 
avoidable burden on the veteran; and to coordinate (in conjunction with 
our Disease and Case Management teams) community-based care for 
veterans with such illnesses as Post-Traumatic Stress Disorder.
    Our provider partners are held to high care and service standards, 
and are contractually obligated to meet TRICARE requirements for HIPAA-
compliant claims submission, patient appointing and procedural 
activities. Again, it would be our privilege to lend our services, 
expertise and support to the VA (and, in turn, our Nation's deserving 
veterans) by leveraging our provider networks for their use.
                             virtual cbocs
    Because the density of veteran populations in some communities does 
not seem to be significant enough to warrant the construction of a 
bricks-and-mortar CBOC, there could be a great benefit in partnering 
with TriWest (and the other TRICARE contractors) to allow our network 
providers to serve as ``virtual'' CBOCs for these veterans for whom 
access to care might otherwise be marginal. Coupled with benefit 
management and case management, these virtual CBOCs could provide 
veterans with convenient access to high-quality, cost-effective care 
without requiring extensive travel on their part.
    To ensure continuity of care, the VA and its TRICARE partners would 
obviously need to establish some key parameters for virtual CBOCs. For 
instance, these virtual care centers could focus primarily on 
addressing returning veterans' medical and behavioral health care needs 
for a specified period of time; authorization by a case manager would 
be required prior to care at a virtual CBOC to ensure that the VA had 
the opportunity to continue to be the veteran's provider of choice; and 
the maintenance of comprehensive medical records would be required for 
all enrolled veterans. In fact, this may provide an opportunity to 
demonstrate the use of the VA ``VISTA Office'' electronic medical 
record between the VA and TriWest's virtual CBOC's.
    A primary benefit of the virtual CBOC concept is that this approach 
would allow for locally based access to care and case management in 
coordiation with community resources such as social, pastoral and other 
behavioral-health support services designed to help the veteran 
integrate back into the community. In our role as the VA's partner in 
the virtual CBOC paradigm, TriWest could establish a ``Veterans 
Advocate'' program in which we serve as the veterans' connection to 
local, State or Federal community services to which he or she may be 
entitled.
    I encourage you to consider how the establishment of virtual CBOCs 
throughout the Nation might benefit our veterans and optimize the VA's 
delivery of care. Perhaps we could initiate this venture by conducting 
pilot demonstrations in Idaho to assess the value and cost-
effectiveness of virtual CBOCs, and to determine how these care centers 
would best benefit our joint veteran customers.
                          best federal pricing
    Overall, I believe that by collaborating to address issues related 
to veteran health care delivery, not only can we improve the 
availability of services and support for these most-deserving men and 
women and their families, but we can help minimize and contain the VA's 
financial burden as well.
    As a TRICARE contractor, we have proprietary network agreements and 
preferred provider agreements with network discounts; our provider 
partners are required to submit claims electronically for 
beneficiaries; and, most importantly, their billed charges are capped. 
These contractual requirements mean significant cost savings and best 
Federal pricing for us, the Department of Defense, and the Military 
Health System, and could potentially do the same for the VA and its 
beneficiaries.
                           concluding remarks
    Earlier this year, I had the opportunity to join Governor 
Kempthorne and senior officials from the Department of Defense for a 
town hall with Idaho's Guard and Reserve components and their families 
prior to their deployment to discuss what could be done to optimally 
respond to their needs as they prepared for the sacrifices that lay 
ahead. Governor, I want to thank you for your focus and for making sure 
that all of us were focused. I hope that you'll agree that we made good 
on our commitments to those whose sacrifices and service we so admire.
    In late April, I was honored to join those same senior officials 
from the Department of Defense on a trip to the Middle East to walk 
among the heroic men and women of our Nation's armed forces who are 
serving so far from their families and their freedoms--including a 
number of the individuals who were in the auditorium that day prior to 
their deployment. I went because I wanted to thank them for their 
service and sacrifices, but more than that, to make sure that we were 
making good on our promise to take care of their families while they 
were gone.
    It was abundantly clear from the encounters I had with the troops 
from Idaho, that there is a deep sense of gratitude for all that both 
you and the Chairman have done to respond to their needs. The Idaho 
Guardsmen expressed their sincere appreciation for the consistent 
follow-through in the care provided and the Chairman's recent tour 
there. It is a deep honor to serve those who serve all of us. And, 
those of us in the Military Health System are doing and will continue 
to do our level best to respond to the health care needs of their 
families, so that they can stay focused on the important task at hand.
    For me personally, seeing their toil, their commitment and their 
sincere appreciation has only strengthened my resolve to lead TriWest 
with the needs of these brave servicemembers and their families daily 
in our minds, so that we can continue to do our part to deliver on the 
promise of TRICARE in the West Region.
    It has been my pleasure to share with you today a little about 
TriWest's efforts on behalf of these phenomenal men and women, both 
throughout the West and specifically here in Idaho, and I look forward 
to discussing in greater detail how we can partner with the State, DoD 
and the VA to further the effectiveness of our response to these 
efforts.
    Thank you for your time and for your commitment to our national 
heroes. They are serving for us; and we need to continue to do our 
level best to meet their needs.

    Chairman Craig. David, thank you very much. Now we turn to 
Mayor Reese. Mayor, I know of nothing more important for a 
returning warrior than to be able to go back to work. That is 
in total with his family or her family and their church and 
their employment a real sense of stability if they know they 
can return to the job they left. That's your job, I understand.

  STATEMENT OF SCOTT REESE, MAYOR OF BLACKFOOT AND CHAIRMAN, 
   IDAHO STATE COMMITTEE, EMPLOYER SUPPORT OF THE GUARD AND 
                            RESERVE

    Mayor Reese. Yes. Thank you, Mr. Chairman. Before I start 
I'd like to just thank those in the audience that have served 
our country and those that serve today. The Employer Support of 
the Guard and Reserve, for which I have the privilege and honor 
of chairing for the State of Idaho, had the unique opportunity 
to be part of the Boise State football game a couple years ago. 
We did a half-time program, and we had the 25th Army Band, 
along with Boise State.
    Out there from my side of the State, Eastern Idaho side, it 
wasn't much of a game. If you remember, it was about 63 to 
nothing. That's memorable to the Boise State fan. But what I 
will never forget is all the volunteers that we had manning the 
various gates as people were coming in with their tickets. And 
the Nampa, Meridian, and Boise senior citizen centers had tied 
red, white, and blue ribbons and were giving those ribbons to 
anybody that had a member in the service or with prior military 
experience. One of our past State chairmen, Bob Cameron, an 
elderly lady approached him and said, ``I would certainly like 
to have one of those ribbons.'' And he said, ``Well, 
absolutely. Do you have a family member in the service?'' She 
said, ``Yes, I do.''
    And so he helped her pin this ribbon onto her collar. And 
he said, ``If you don't mind my asking, grandson, son?'' And 
she said, ``No, my husband.'' And Bob said, ``Your husband?'' 
And she said, ``Yes, my husband is still serving.''
    And of course, Bob knew that couldn't be the case as far as 
active duty. So he pressed it just a little further and said, 
``If you don't mind, where is he?'' And she said, ``Aboard the 
USS Arizona.'' Now, that's what I take from that football game. 
That's why we do what we do and we volunteer, and it's all 
volunteer.
    And our job is to work with the employers, the employees, 
the citizen soldiers to ensure that they do have a job to come 
home to as the Senator and the Chairman alluded to.
    It is a privilege to be here, and I want to thank the 
Governor personally. He doesn't just talk the talk. He walks 
the walks. I personally watched him dole out Thanksgiving 
dinner for over 6 hours along with Paul Revere and several 
other people from Idaho in Alexandria, Louisiana. Not once did 
he get relieved. Not once did I hear him complain. He stood 
there and took photograph after photograph and smiled and truly 
believes in the men and women and their cause and their safety 
and their concern. I want to thank you for that opportunity. I 
had to share that with you.
    The Idaho Committee of the Employer Support of the Guard 
and Reserve, or ESGR, is a State committee organized under the 
national committee, an agency within the office of the 
Assistant Secretary of Defense for Reserve Affairs, founded in 
1972 because of the elimination of the draft. And when those 
that were leaving the Guard and Reserve were interviewed, over 
one-third said it was because of the employer conflicts. So the 
Department of Defense chartered the National Employer Support 
of the Guard and Reserve, and now there are currently over 4500 
volunteers nationwide and 55 committees, all 50 States 
including the District of Columbia, Guam, Puerto Rico, the 
Virgin Islands, and Europe.
    Because the Nation's ready Reserve components comprise 
approximately 46 percent of our total available military 
manpower, and because the Guard and Reserve are a necessary 
part of our national defense, it looks as if they're going to 
spend more time away from the workplace defending our Nation. 
And it is imperative that an understanding and cooperation 
between the Guardsmen and Reservist and their civilian 
employers be promoted.
    In addition, the employer educational programs promoted by 
the National, as well as the Idaho committees, encourage 
employee and citizen participation in the National Guard and 
Reserve programs by: One, gathering community appreciation for 
the National Guard and Reserve in our national defense; two, by 
educating employers about the personnel policies and practices 
that accommodate employee participation in the National Guard 
and Reserve; three, by assisting in preventing, resolving, and 
reducing misunderstandings that result from military duty 
requirements under the Uniformed Services Employment and 
Reemployment Rights Act, or USERRA; and finally, assisting in 
training National Guard and Reserve members about their 
obligations and responsibilities to employers.
    Specifically with these goals in mind, the Idaho committee 
of over a hundred volunteers in six regions have begun an 
aggressive campaign to educate, involve, and inform both 
employers, Reservist, and their family so that the Army 
National Guard's 116th Brigade Combat Team that was deployed to 
Iraq last year will have a seamless transition back to civilian 
life later this year.
    Statistically, Idaho ranks third in total percentage based 
on a thousand population at 4.2 percent, but in mobilization of 
total Reserve in the west, Idaho ranks number 1 with nearly 38 
percent of our Guard and Reserve folks activated. We have many 
programs to work with the employers. One of those is our Five-
Star Program, which is promoted by our Idaho Committee of ESGR, 
as well as the National. It's designed to recognize those 
employers who provide additional training and benefits to the 
Guard and Reserve that are above and beyond what USERRA 
requires. Since October of last year, the Idaho committee has 
tripled the number of Five-Star employers in the State.
    The Idaho committee nominated a Boise-based company, 
Idacorp, for the Secretary of Defense National Freedom Award 
and has been recently notified that the company was selected 
for the recognition that will take place in Washington, DC in 
October. They are one of 15 companies selected nationwide to be 
recognized by the President and Secretary Rumsfeld. We believe 
that the importance of this recognition will encourage other 
employers to look more seriously at providing exceptional 
benefits to those individuals who provide much needed sacrifice 
and service to our country.
    Additionally, the committee has partnered with the Idaho 
Inter-Service Family Assistance Council to provide briefings 
with the Adjutant General of the State of Idaho and 
representatives from all the major branches of the service for 
family members at 10 locations statewide from July through 
October of this year. And I'd be remiss if I didn't acknowledge 
General Lafrenz and for all that he has done for our committee 
in supporting what we do because it's a partnership. And he 
puts his assets out and makes them available for us to educate 
employers, whether it's using a C130 to transport from Boise at 
Gowen Field, or his staff traveling to make awards and bring 
special recognition to these employers. So General, I want to 
say thank you.Lafrenz. Thank you.
    Mayor Reese. This same group is coordinating efforts to 
welcome and brief returning National Guardsmen and Reservists 
and will schedule ``welcome back'' demob briefings around the 
State once a return is more certain. The State committee for 
the ESGR is providing USERRA training to county service 
officers at their annual meeting in August and is actively 
scheduling Boss Briefings and USERRA training at the employer 
level. Committee members act as liaisons between employers and 
Reservist by providing technical assistance and by receiving 
and investigating claims in any disputes that arise upon a 
citizen soldier's return.
    Our annual meeting is going to be taking place on Friday 
and Saturday of this week in Twin Falls. And we're going to 
focus on ombudsman training for an entire organization and 
we'll spend 2 days doing that. In short, the Idaho Committee of 
the Employer Support of the Guard and Reserve believes that 
asking citizen soldiers to serve as frequently and as intensely 
as we are now asking them to do is a long-term concern to 
employers, and we are committed to the work of sustaining 
soldiers both in the workforce and their duties in support of 
our national defense. Thank you.
    [The prepared statement of Mayor Reese follows:]
  Prepared Statement of Scott Reese, Mayor of Blackfoot and Chairman, 
    Idaho State Committee, Employer Support of the Guard and Reserve
    The Idaho Committee of Employer Support of the Guard and Reserve 
(ESGR) is a State committee organized under the national Committee, an 
agency within the Office of the Assistant Secretary of Defense for 
Reserve Affairs.
    Because the Nation's Ready Reserve components comprise 
approximately 46 percent of our total available military manpower, 
excluding retirees and because these Reservists, as a necessary part of 
the national defense, will spend more time away from the workplace 
defending the Nation, it is imperative that an understanding and 
cooperation between Reservists and their civilian employers be 
promoted. In addition, the employer educational programs promoted by 
the national, as well as the Idaho Committees, encourage employee and 
citizen participation in National Guard and Reserve programs by:
    1. Gathering community appreciation for the role of the National 
Guard and Reserve in our national defense.
    2. By educating employers about personnel policies and practices 
that accommodate employee participation in the National Guard and 
Reserve.
    3. By assisting in preventing, resolving, or reducing 
misunderstandings that result from military duty requirements under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA).
    4. Assisting in training National Guard and Reserve members about 
their obligations and responsibilities to employers.
    Specifically, with these goals in mind, the Idaho Committee of over 
100 volunteers in 6 regions have begun an aggressive campaign to 
educate, involve, and inform both employers, reservists, and their 
families so that the Army National Guard's 116th Brigade Combat Team 
that was deployed to Iraq last year will have a seamless transition 
back to civilian life later this year. The 5-Star Program, promoted by 
the Idaho Committee of ESGR, is designed to recognize those employers 
who provide additional training and benefits to Reservists that are 
above and beyond the USERRA requirements. Since October of last year, 
the Idaho Committee has tripled the number of 5-Star Employers in the 
State. The Idaho Committee nominated the name of a Boise employer, 
IDACORP, for the national ``Freedom Award'' and has been recently 
notified that the company was selected for the recognition that will 
take place in the White House in October. We believe that the 
importance of this recognition will encourage other employers to look 
more seriously at providing exceptional benefits to those individuals 
who provide much needed sacrifice and service to our country.
    Additionally, the committee has partnered with the Idaho Inter-
Service Family Assistance Council (ISFAC) to provide briefings with The 
Adjutant General of the State of Idaho and representatives from all of 
the major branches of the service for family members at 10 locations 
statewide from July through October of this year. This same group is 
coordinating efforts to welcome and brief returning National Guardsmen 
and Reservists and will schedule ``welcome back'' demob briefings 
around the State once a date of return is more certain. The State 
committee for the ESGR will be providing USERRA training to the county 
service officers at their annual meeting in August and is actively 
scheduling Boss Briefings and USERRA training at the employer level. 
Committee members act as liaisons between employers and Reservists by 
providing technical assistance and by receiving and investigating 
claims in any disputes that arise after their return. The annual 
meeting of the Idaho Committee will focus on this important Ombudsman 
responsibility by bringing in a national representative to provide 
training. In short, the Idaho Committee of the Employer Support of the 
Guard and Reserve believes that asking citizen soldiers to serve as 
frequently and as intensely as we are now asking them to do is a long-
term concern to employers and we are committed to the work of 
sustaining soldiers both in the workforce and in their duties in 
support of our national defense.

    Chairman Craig. Mayor, thank you very much. Thank you for 
all of your work and involvement.
    General, I must say that you've provided us with an 
impressive array of efforts well underway here in Idaho that 
will obviously by all of those efforts and presence, cushion 
the re-entry of many of our Guard and Reserve into civilian 
life again.
    In a variety of hearings I held in Washington, one of the 
things we hear from those who have gone through the busting out 
process or the informational flow as they return to civilian 
life with the Guard and Reserve, is a bit of information 
overload. It's kind of like I hear it, but I don't hear it. I 
want to go home. I want to get the heck out of here. And as a 
result of that they get home. They may have forgotten what they 
heard, or they didn't hear at all, or they were provided with 
information in pamphlet and brochure and other materials that 
they don't think to access.
    I was extremely pleased to hear you say you're going to 
keep these centers open for 18 months. I think that is 
tremendously important that you do that, largely based on at 
least what I'm hearing about the potential for information 
overload. Is there a main number, or will you have a main 
access telephone number that these Guard and Reserve will have? 
What will be their point of contact, let's say during this 
period of time beyond the Family Assistance Centers that you're 
talking about?
    General Lafrenz. Yes, sir. We do have a phone number. It's 
a 1-800 number.
    Chairman Craig. Good.
    General Lafrenz. We have found with seven service centers 
that we have currently open that they also have numbers and our 
families utilize those centers to a large degree for their 
point of contact to disseminate information and/or request 
support. At that point in time our focus on those locations, 
while pretty well educated and adept at taking care of those 
issues, they may not resolve the issue or the problem. They 
also call us and we put whatever staff element here in Boise 
that we need to do to resolve the issue.
    One of the things that we all have to keep in mind is that 
the subordinate battalion headquarters to the brigades that are 
out there in the State, around the State are no longer there 
now. Those battalion headquarters are in the desert. So we've 
got people occupying those locations who have developed 
tremendously since we put them in those positions to help 
families and soldiers. And I've got to tell you, Senator, that 
they're on call 24/7 out there and are doing their job. We 
intend to keep those facilities operational for as long as it 
takes to ensure that we put soldiers back in not only their 
units, but their jobs and back into the family. So that's the 
way we operate, sir.
    Chairman Craig. General, one of the things that has been 
talked about here already in the first panel, and I keep 
approaching it in all the hearings I have in Washington is the 
issue of PTSD and the difference between an active service man 
or woman coming back to their community of like service people 
at their fort or wherever their installation being uniquely 
different from a Guard or Reservist coming right back into 
civilian life to their family and to their community--and the 
Governor's referenced, in essence--when the band quits playing 
and all the attention goes away and the reality of life sets 
in.
    What opportunities will returning Guards and Reservist have 
to be with their peers and their fellow Guard and Reservist 
after coming home? And have you taken into account as part of 
your reintegration program reunion programs?
    General Lafrenz. Yes, sir. That's a great question, because 
the majority of our soldiers, as you just pointed out, do not 
reside on or near a base. They leave the comrades that they've 
been with for the last 18 months. And quite frankly, we deploy 
their home stations.
    Currently there is a regulation out by the Department of 
Defense that allows soldiers 60 days to decompress at home 
station before they come back and join our military 
organization again as active members. Our program is going to 
be to actively encourage these folks to come back as soon as 
possible. We will continue to have our monthly training 
periods. And even though these soldiers don't have to come 
back, I think we will find that many of them will. Our 
leadership will encourage them to do so for that reason.
    And then we intend to send a staff officer and officers and 
enlisted personnel from our headquarters out to the community. 
We're going to be redundant on town hall meetings after the 
redeployment to get out, talk to soldiers, change the command, 
ensure the brigade and the battalions will have contact 
personally and by phone with soldiers at home to get a feel or 
a sense of how they're doing, what they're doing, are there any 
issues.
    These soldiers will likely talk to their counterparts, to 
their chains of command if there are issues. We are training 
families how to recognize stress issues and giving them an 
outlet to be able to call and have us help resolve those issues 
if there are issues.
    The marriage portion of this, the chaplain has been 
energetically working that issue. We have secured funding or 
will secure funding for our redeployment from the National 
Guard bureau that will allow us to have marriage retreats, if 
you will, between spousal members. We will furnish daycare 
opportunities so that children are not--parents won't have 
concern with child care. And we hope all of these programs will 
help as a safety parachute, if you will, to get our people back 
into civilian life and back into part-time military life.
    Chairman Craig. General, you've again--that's obvious 
demonstration of the fact that you're attempting to cover all 
bases as you should. Have you or the Chaplain made any contact 
with the religious community of the State as it relates to 
their ability to participate and/or be associated with this? 
Oftentimes a family's minister can be a point of contact if 
that family finds itself in a distressed environment.
    General Lafrenz. Yes, sir. I just happen to have a chaplain 
right here. I think we talked about that within the last 30 
days. Chaplain, if you have any updates on that, I would invite 
you to comment on that. I know that we're working on that 
issue, sir.
    Chaplain Moore. I guess I go there?
    Chairman Craig. Please do. Chaplain, as you go there, for 
any of us who attend church or are in and out of the churches 
of Idaho on a regular basis, almost every church has a bulletin 
board with pictures of their members who are currently in 
service in Iraq and Afghanistan. I know being in and out of 
these churches, I thought that would be a natural contact 
point, so please tell us what you're doing.
    Chaplain Moore. We have been in contact. Mostly the 
churches themselves have initiated that. Anywhere from eastern 
Idaho where there is a naval chaplain, Ben Orchard, who took an 
active part in that part of the State, even helped us do some 
of our early meetings before the families departed. I'm sorry 
to say he's transferring to eastern Washington, so we've got to 
find someone to take that and Cavalry Chapel here in Boise and 
many others. We have a little Baptist Church that has six of 
their members deployed. I happen to be involved with that one 
some.
    But to answer the question straightforward, we have been in 
contact. The Presbyterian Church downtown called. We have a 
letter that we provide churches upon request. We have a list of 
pastors that have volunteered their time throughout the State 
in case we, God forbid, have a mass casualty kind of event. And 
these men and women have been screened and have credentials to 
do that kind of stuff, those types of events.
    We are providing a military praise and worship service in 
the Gowen Chapel every first and third Sunday at 5 p.m. That 
has been attended by the families. They're going to be invited 
also to these town hall meetings that we're having just as well 
as employers. I don't know if I've answered your question or 
not, sir.
    Chairman Craig. Yes, you have. Thank you, Chaplain. I'm 
pleased to see that kind of outreach going on because I think 
that's an extremely valuable point of contact.
    Couple more questions before I turn to the Governor for any 
questions he may have. David, again thank you for your 
presence, your involvement, your ongoing involvement as we've 
worked our way through to which is a much better environment 
here in Idaho for those that are actively now involved with 
TriCare and in this instance TriWest.
    You mentioned in your written testimony coordinated efforts 
in Oregon and Washington. Have you been in contact with Idaho 
stakeholders about the possibility of establishing a similar 
program, or is that currently going on as it relates to the 
kind of initiatives underway in those two States?
    Mr. McIntyre. What we've done in Oregon and Washington is 
to work with the VA leadership locally to develop a 
collaborative relationship that actually resulted in the 
formation of a joint advisory group that's working together. 
Some of that leadership is here today. We need to engage in the 
same kind of conversation here in Idaho that would take that a 
step further, the work that we've been doing here.
    The one thing that's a bit unique about what we're doing in 
Oregon is that Oregon is all Guard and Reserve. There is no 
active duty military presence in terms of bases and 
installations in Oregon. And Governor Kempthorne, you have set 
the pace for the Governors around the country in terms of the 
State's focus on this. And we've tried to take some of those 
same areas of focus and see if we can apply them into that 
area. So I think there is, sir, an opportunity to more 
aggressively focus collaboratively here between ourselves, the 
VA, and the DOD. And we certainly ought to take what we're 
doing in the Northwest and combine it together with what we've 
already started here in Idaho.
    Chairman Craig. Well, thank you very much. Mayor, acronyms 
always trip my tongue, but USERRA, is that the correct acronym 
for Employment and Reemployment Rights Act?
    Mayor Reese. Yes.
    Chairman Craig. That Act guarantees reinstatement of jobs 
and benefits for those who left them. That's the law. It does 
not help those in situations where businesses have shut down, 
relocated, downsized because there are in some instances no job 
to return to.
    Is there any survey or effort now underway to see if those 
kinds of situations exist in the State of Idaho that might 
impact our returning Guard and Reservist?
    Mayor Reese. Mr. Chairman, that's right on the mark as far 
as a question. That's our concern as a committee. By way of 
statistics, there is are percent of those Guard and Reserve 
that are self-employed. To my knowledge I don't have firsthand 
knowledge how that's been handled, but definitely for 214 of 
our Guardsmen, that's an issue. Sixty-five percent are in the 
private sector. Seven percent are in public. And then this is 
the alarming statistic. 2,297 of our Guard and Reserve work for 
companies with fewer than 10 employees.
    I'll give you an example, the Fort Hall Fire Department. 
When the 938 was called up when we went into Iraq, the special 
firefighting unit, that took 2 people from the squad and that 
had a huge impact. And we have mutual aid with my city and Fort 
Hall and we were able to do some double coverage. But that is a 
concern across the State of Idaho. That's just one example.
    But I don't have any answers to your question. I wish I 
did. I wish I could tell you yes, we're on top of the self-
employed and the small companies. But we're trying to do that 
with our outreach programs with whether it's a briefing with 
the boss, the bosses we're bringing them to Gowen Field, 
showing them what we do, what the solders do, or whether it's 
taking them to Fort Lewis which we just finished in March. So 
we had an aggressive schedule of trying to educate as many 
employers as possible of the value that these citizen soldiers 
are making. But I don't know to what extent the small 
businesses how hard they've been hit.
    Mr. McIntyre. Mr. Chairman, may I follow up on that?
    Chairman Craig. Sure. Please do.
    Mr. McIntyre. The mayor has done a great thing in terms of 
his focus in this area. We serve 21 States and they're States 
that are largely rural in their makeup. Most not quite as rural 
as Idaho. But as we've spent time with the employers in those 
States all across the 21-State area, we've heard of a concern 
over and over of how do I bring people back? And particularly 
the concern over what's going to happen to my healthcare costs? 
Because if you're a small employer, you pay more for health 
insurance than if you're in a large employer on a per capita 
basis.
    And the work that you did in the Senate and the like to 
bring the benefit to the table to allow people who have served 
in the field, have been in the desert, have been in the theater 
to get credit for their service, I think needs to be marketed 
very, very heavily with the small employers because if they 
understand that there may not be a healthcare impact on them, 
at least what I heard going into the consideration of that 
legislation, they may be more inclined to take those people 
back provided that they still have a place for them to be in 
terms of contributing to their organization. Because, then they 
don't have to face an up rating on their health insurance.
    Chairman Craig. Thank you for mentioning that, David, 
because of course that was exactly the intent of that 
legislation. Hopefully, that's part of what's working out 
there.
    General Lafrenz. Sir, may I also comment on that?
    Chairman Craig. Yes, General.
    General Lafrenz. We just instituted this in July. I think 
it will work very well for us in cooperation with the Idaho 
State Department of Commerce and Labor and the Idaho National 
Guard. We have, in fact, put a military counselor, if you will, 
to interface at the Boise, Twin Falls, Pocatello, and Coeur 
d'Alene Job Service Office. I don't know any other State that 
has tried that.
    I talked to the Governor several months ago and through his 
help working with the other State agencies, we started that. 
It's been in effect now for just about a month. So I think it's 
working pretty well, but I've got to tell you I haven't had a 
chance to get down and visit them yet, but I will do that. But 
I think it will pay real dividends for us.
    Chairman Craig. Well, that's great. That's underway. 
Governor, any questions of this panel?
    Governor Kempthorne. Yes, please. First of all, if I may, 
Under Secretary Perlin, just to note for the record, currently 
in Iraq 62 percent of the combat soldiers are Guard Reserves. 
This is an incredible situation. And not since the Civil War 
have you seen that State identification of military units from 
States. So this is a new paradigm. I know we all recognize it. 
I think it needs to be said. This is historic. And so we're 
going down a new path.
    And also, to my friend Scott, Mayor Reese, we're extremely 
well served with their chairmanship of the ESGR. As you pointed 
out where Idaho is No. 1 right now in percent, that will go up 
the end of October when we have the Apache helicopters that 
have now been mobilized, the 183rd.
    General Lafrenz. Sure.
    Governor Kempthorne. So add another 250 soldiers. So the 
call to duty of the Guard and Reserve continues. That's why we 
need to make sure that we take care of these soldiers when they 
come home. That's going to be part of the key to recruitment 
and retention.
    Let me ask, and David I want to thank you for all that 
you've done with TriCare and TriWest. You really have stepped 
up. That figure of 416, that's tremendous.
    Mr. McIntyre. We couldn't have done it without your 
encouragement and focus, sir. Thank you.
    Governor Kempthorne. Well, thank you. The medical community 
and the dental community in Idaho, I sent letters to everybody, 
and they responded.
    Mr. McIntyre. Yes, sir. I'm pleased to say that 99.8 
percent of their bills are being paid within 30 days.
    Governor Kempthorne. Yes. It's a wonderful record. It 
really is. Something we're very proud of.
    Is there a situation, David, that we need to put on our 
radar screen that there's a clock running? When they come home, 
there's demobilization, that they have coverage with TriCare. 
But do they have any situation in the future where someone may 
be affected by a preexisting condition?
    Mr. McIntyre. No, there's no preexisting condition 
exclusion under TriCare. It was designed that way.
    Governor Kempthorne. But what if when they transition from 
TriCare?
    Mr. McIntyre. When they transition from TriCare it will be 
up to the employer's coverage, assuming that they're under an 
employer coverage, or the individual coverage. I think that 
employers will want to work carefully with those individuals to 
make sure that they understand as they reintegrate them out of 
the TriCare benefit into a purely private sector benefit, that 
they have not left them in the lurch.
    However, I believe that given the fact that many of these 
people will be coming back with essentially 4 years of 
coverage, if we believe what we read in terms of the roll-over 
in terms of reintegration in the units and the like and their 
redeployments, they may well be back somewhere in activation 
during that 4-year period of time to which they would continue 
to earn their TriCare benefit. So most of these people will be 
returning with that kind of eligibility. That's a strong thing 
particularly when you're talking about a State that has so many 
small employers, which is one of the reasons why the chairman 
was so strongly behind that particular initiative.
    Governor Kempthorne. I think we should note that, that 
there is a potential gap there.
    Mr. McIntyre. Absolutely.
    Governor Kempthorne. So we need to be cognizant of that. We 
should be working together to make sure nobody, nobody, not one 
soldier----
    Mr. McIntyre. Correct.
    Governor Kempthorne [continuing].--is left in the gap.
    Mr. McIntyre. Correct.
    Governor Kempthorne. Can a military family opt to remain 
with TriCare beyond the eligibility period?
    Mr. McIntyre. Not beyond the statutory eligibility period. 
And at the moment Congress has limited that to--actually, 
Congress took and expanded it as a result of the conflict, and 
so this is a new addition of a benefit. And the department's in 
the process of finalizing the rules for that. Heretofore that 
did not exist prior to the conflict.
    There is discussion on the hill about whether that ought to 
be made permanent and whether you simply should have the option 
to opt in if you stay in the Guard and Reserve. But that is not 
something that's yet been acted on.
    Governor Kempthorne. When all of our soldiers return, will 
there be a health assessment completed on each soldier so that 
we now have a baseline?
    Mr. McIntyre. My understanding, and this was backed up by 
what Dr. Perlin was talking about, is that there will be a 
health assessment required by the Department of Defense when 
they return. It will in some cases be done by the DoD. It will 
in other cases be done by the VA.
    My understanding from Dr. Chu's staff, who is the Under 
Secretary for Personnel for the department, is that those plans 
are in place. Those are being conducted.
    On the behavioral health side there is a screening tool 
that's put together. That screening tool will do a baseline 
assessment. Then I believe it's every 6 months that the 
baseline is re-upped and that's when we got into the 
conversation about whether the re-up of the baseline would be 
done by phone or in person. The initial baseline is to be done 
in person as I understand it.
    Governor Kempthorne. Did you say that a health assessment 
could be done by phone?
    Mr. McIntyre. No. I may have misspoken.
    Governor Kempthorne. No, I probably misheard.
    Mr. McIntyre. I may have misspoken, sir. No, the health 
assessment is done on the return. Or actually in some cases 
prior to their return over in theater. And the earlier 
statement about the combat stress teams, they are alive and 
well as I saw when I was in the desert doing a great job. But 
some units are getting their health assessment in theater 
before their return. Some get their health assessment when they 
return. And that health assessment includes a behavioral health 
baseline, which is done in person, and then that may be the 
item that's updated by phone, depending on where the units are, 
how they come back together to train, and the like.
    Governor Kempthorne. You mentioned Dr. Chu. I'll just State 
that we have all been well served by David Chu.
    Mr. McIntyre. Yes, sir. And his deputy, Charlie Able, who I 
don't know if you saw, was just named by the Senate as the new 
Chief of Staff or Staff Director of the Armed Services 
Committee effective September 1.
    Governor Kempthorne. Charlie Able was my staff member.
    Mr. McIntyre. You trained him well.
    Governor Kempthorne. I did. We're a good team.
    Now, General or Mayor, when a soldier returns, how long 
does he or she have when they arrive back in Idaho before they 
report to work? How long are they covered?
    Mayor Reese. Well, USERRA clearly dictates that they have 
90 days before they have to report back to work, so in essence, 
3 months. And then when they do return, they are put back to a 
seniority status, like kind of job, and benefits as if they had 
never left.
    Governor Kempthorne. And Scott, do you anticipate problems 
when they do return to the workforce? And then if there is a 
dispute, who resolves that dispute between the employee and the 
employer?
    Mayor Reese. Well, unfortunately, we do see some conflict 
because of the rural nature and small businesses that are 
predominant here in Idaho. So we have members assigned to each 
unit that is in every armory with a contact and a name. And 
we--when I say we, my volunteers, our committee looks into both 
of those sides, the employer, the employee. And if we can't 
resolve it--and we do have a very high solve rate. We're in the 
mid-90s when we do get a conflict. But we've never had this 
magnitude. That's the uncertainty here. But we have a real high 
success rate right now. But if we can't resolve that, then we 
have to three ombudsman in each region of the State, one in 
each region I should say, that has volunteered and they handle 
that. And if they can't resolve that, then it goes to 
Department of Labor.
    Governor Kempthorne. I don't know if this was part of 
Senator Craig's question, but where we did have small business 
men and women where they were the single employee and so 
therefore their business closed while they're deployed, when 
they return, what programs are there for capital access, low-
interest loans so that they can get their business going?
    Mayor Reese. I don't know of any. General?
    Governor Kempthorne. Jim, I think this would be worth being 
on the record or providing us some information of those 
situations where we do have those small businesses where we 
took principally the entire work force and their businesses 
were closed because of that. That's something that again we 
might be able to work on with Senator Craig.
    General Lafrenz. Yes, sir. When we had that preliminary 
briefing when Charlie Able was out here, there were a couple of 
individuals that fell into that category. And it was one of 
those issues that we definitely need to work on because those 
people, right now as they come back, to my understanding, have 
very little options from the standpoint of being able to gain 
any sort of financial assistance through SBA, or any other way 
I believe to get back on their feet or get their business back 
up and running. So it's really, really one of the shortfalls in 
our system, I do believe.
    Governor Kempthorne. That is one of those items we should 
put on the list that we need to put our full attention to.
    General, I'm going to ask you just the big overview 
question, but what do you think we need to put on this, our 
list of your greatest concerns as the Adjutant General, the 
116th that is on their way home in a few months, we have all of 
the Reserve units that will be coming home, the one or two 
items that are still at the top of your list of concerns.
    General Lafrenz. Thank you, sir. I think No. 1, healthcare; 
No. 2, a program and I think we've got the foundation for it. I 
think we need to continue to develop it. Most of it is in my 
own office. And that is an ability to stay in contact with 
soldiers who have come home from 18 months at war and now find 
themselves in a different world from when they left with 
completely different parameters. We have to be able to stay in 
contact with these soldiers and their families and not forget 
about them.
    I think as you pointed out, sir, when the band stops 
playing, we've got to have some ability to actively continue 
that interface. And we will do that, but it's going to have to 
be a proactive effort. I think that's my biggest concern, 
losing contact and interface and personal interface with our 
soldiers who all of a sudden for 60 days or better are out on 
their own and then come back and things have changed. And we 
have to mitigate and work those issues. That's my biggest 
concern.
    Governor Kempthorne. Scott, I appreciate your comments that 
you made, and let me just note that Mayor Reese joined me down 
in Louisiana for those 6 days and General Lafrenz. There's a 
number of folks here in the audience that I see, Bill and Donna 
and Cindy and Rob and John and Jim, a lot of you were there.
    We made a decision that after 6 days we were going to stay 
another 24 because there were two battalions that were not from 
Idaho, but they were part of the 116th. There was no one there 
to wish them God speed as they boarded the airplanes. So we 
stayed the other 24. Everybody stayed with me.
    I'll just tell you that on one of my trips to Walter Reed 
Hospital on an afternoon I was asked if I would stand in for a 
general who was not able to be there to pin some Purple Hearts 
on some soldiers. And ironically one of the soldiers that I had 
the great honor of presenting a Purple Heart to was a young man 
who was in one of those battalions that we stayed the extra 24 
hours and he remembered our talking down in Louisiana and to be 
able to bring it full circle to be able to pin that Purple 
Heart on him. We're all in this together.
    And so again, I commend Chairman Craig for convening this. 
This has been very beneficial. All of you are dedicated. I 
mean, there is no question in anyone's mind about your 
dedication to our troops. And the moms and the dads. We're 
equal to the task. It's going to be challenging. And we're 
going to have some curves thrown at us, but I think being 
professional and innovative and pragmatic, we will respond 
appropriately. And again, Idaho will be able to be held up as 
an example of how we should do it. So Mr. Chairman, again, I 
commend you again.
    Chairman Craig. Governor, thank you and thank you for being 
here. And your constant involvement since day one with the 
deployment of all of these Idahoans has been impressive. You've 
handled it so very well.
    Let me thank all of our panelists today. General, you've 
obviously laid out by your testimony a commitment that is very, 
very impressive. And thank you for that.
    David, the efforts of TriWest are in the proof of the 
doing, and you're doing and that's what is important to all of 
us, but especially to our men and women in uniform.
    And Mayor, obviously thank you for your commitment. I know 
you're paid well for what you do.
    Governor Kempthorne. May I just add, too, Mr. Chairman?
    Chairman Craig. You are paying him, aren't you, Governor?
    Governor Kempthorne. Yes, I am. It's priceless. But our 
Adjutant General, General Lafrenz, we're so, so well served by 
him and his dedication to his men and women and the families. 
And I remember at the National Training Center when the brigade 
went down there. This was 10 years ago?
    General Lafrenz. Pretty close.
    Governor Kempthorne. That's the top gun for the military on 
the ground and you're not supposed to win. You're supposed to 
come away much smarter. He was the commanding general in the 
field and they won. Idaho won against Opposition Force, which 
was the home team, and it wasn't supposed to happen. You 
combine that type of experience with Al Gayhart, who is our 
commanding general in Iraq today, and Kirkuk with the 116th, 
and General Sayler, we're so well served. And look at the 
officers and the men and women.
    I really, you hear this that Idaho is one of the most 
forward leading of any military unit. And it is. It's the men 
and women. It's the support and families. And all of our 
Reserve units. So there's something very special here in Idaho, 
and we know it. But it is the people. And nobody takes their 
position for granted. Everybody looks out for one another. 
That's the collaborative thing that's going to get us through 
this.
    Chairman Craig. Thank you, Governor. I appreciate that a 
great deal. It's so well spoken. Dr. Perlin and to all the 
folks at the VA, we tremendously appreciate your being here. As 
you know, we stay active. I think Dr. Perlin's been to the hill 
more in the last few months under my chairmanship than most. 
And that's not going to stop as we continue to look at all of 
these programs to ensure that our veterans not only here in 
Idaho, but clearly nationwide are served and served very, very 
well. It is important.
    Lastly, the town meetings and the Family Access Centers 
that will stay open and meetings scheduled to be held are going 
to be tremendously important throughout the State as the 
outreach continues with our returning warriors to make sure 
that all are contacted and families are well knowledged and 
served throughout this. It's going to be very, very important.
    Lastly, Governor, I tell this story everywhere I go because 
you are a part of it and Idaho is all of it. When I was in Iraq 
visiting the 116th, what we are doing here is not missed by all 
of them. This is a new war and a new theater. The warrior sits 
down at night and E-mails the spouse at home with instant 
contact. The spouse talks back talking about not only the day 
they've had, but what they hear around them or the news 
coverage. And so what Idaho is doing is well known by our men 
and women in Iraq. In fact, as you know, the 116th's made up of 
folks from Montana and some from Utah and some from 
Pennsylvania and some from New Jersey.
    Several of them said we wished, Governor, they said we 
wished our States were doing for us what Idaho is doing for the 
Idahoans. I think that speaks well of our great State and all 
of the efforts that are well underway. And also we're 
contemporarizing and modernizing not only DoD's contacts and 
VA's contacts and relationships with this modern day American 
warrior who is out there in theater at this moment, that we're 
sensitive to as we hold our oversight hearings and deal with 
the legislation that we deal with on behalf of America's 
veterans and Idaho's veterans.
    Thank you all very much for coming out today. I think this 
has been a valuable hearing, an Idaho record. It's work ongoing 
as it must be. And again, thank you for spending your afternoon 
with us. The meeting will be adjourned.
    [Whereupon, at 4:28 p.m., the Committee was adjourned.]
  

                                  <all>

</pre></body></html>
